<html>
<title> - ARLINGTON NATIONAL CEMETERY: AN UPDATE FROM THE NEW ADMINISTRATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                      ARLINGTON NATIONAL CEMETERY:
                 AN UPDATE FROM THE NEW ADMINISTRATION

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2011

                               __________

                           Serial No. 112-20

                               __________

       Printed for the use of the Committee on Veterans' Affairs




                  U.S. GOVERNMENT PRINTING OFFICE
67-195                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1d6c1def1d2c4c2c5d9d4ddc19fd2dedc9f">[email&#160;protected]</a>  

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

       SUBCOMMITTEE ON DISABILITY ASSISTANCE AND MEMORIAL AFFAIRS

                    JON RUNYAN, New Jersey, Chairman

DOUG LAMBORN, Colorado               JERRY McNERNEY, California, 
ANN MARIE BUERKLE, New York          Ranking
MARLIN A. STUTZMAN, Indiana          JOHN BARROW, Georgia
Vacancy                              MICHAEL H. MICHAUD, Maine
                                     TIMOTHY J. WALZ, Minnesota

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             June 23, 2011

                                                                   Page

Arlington National Cemetery: An Update from the New 
  Administration.................................................     1

                           OPENING STATEMENTS

Chairman Jon Runyan..............................................     1
    Prepared statement of Chairman Runyan........................    34
Hon. Jerry McNerney, Ranking Democratic Member, prepared 
  statement of...................................................    35
Hon. Timothy J. Walz.............................................     3

                               WITNESSES

U.S. Department of Defense:

  Kathryn A. Condon, Executive Director, Army National Cemeteries 
    Program, Department of the Army..............................     5
      Prepared statement of Ms. Condon...........................    35
  Patrick K. Hallinan, Superintendant, Arlington National 
    Cemetery, Department of the Army.............................     6
      Prepared statement of Mr. Hallinan.........................    39

                                 ______

American Veterans (AMVETS), Christina M. Roof, National Acting 
  Legislative Director...........................................    22
    Prepared statement of Ms. Roof...............................    41
Gold Star Wives of America, Inc., Vivianne Cisneros Wersel, 
  Au.D., Chair, Government Relations Committee...................    26
    Prepared statement of Dr. Wersel.............................    52
Tragedy Assistance Program for Survivors, Ami D. Neiberger-
  Miller, Director of Outreach and Education.....................    24
    Prepared statement of Ms. Neiberger-Miller...................    43

                       SUBMISSIONS FOR THE RECORD

American Legion, Ian de Planque, Deputy Director, National 
  Legislative Commission, statement..............................    54
Barrow, Hon. John, a Representative in Congress from the State of 
  Georgia, statement.............................................    55


                      ARLINGTON NATIONAL CEMETERY:
                 AN UPDATE FROM THE NEW ADMINISTRATION

                              ----------                              


                        THURSDAY, JUNE 23, 2011

         U.S. House of Representatives,    
                Committee on Veterans' Affairs,    
                  Subcommittee on Disability Assistance    
                                      and Memorial Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:31 p.m., in 
Room 334, Cannon House Office Building, Hon. Jon Runyan 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Runyan, Stutzman, McNerney, and 
Walz.
    Also Present: Representative Johnson.

              OPENING STATEMENT OF CHAIRMAN RUNYAN

    Mr. Runyan. Good afternoon and welcome. This oversight 
hearing of the Subcommittee on Disability Assistance and 
Memorial Affairs will now come to order. We are here today to 
monitor the progress of the new administration at Arlington 
National Cemetery (ANC), after taking over following the 
shocking revelations of last year's Army's Inspector General 
(OIG) report.
    Before we get started, I would first like to recognize Mr. 
Richard Hopkins, who is sitting over there on the first row. 
Mr. Hopkins is a constituent of mine and traveled down from 
Marlton, New Jersey, to be here with us today. This hearing is 
of great interest to Mr. Hopkins because he has both of his 
parents, and his lovely sister is sitting next to him, both of 
his parents are buried at Arlington. He was understandably 
upset, as was I, when I first took on this Chairmanship. Mr. 
Hopkins called me and said he had a couple of questions with 
something going on in Arlington. His father's gravestone had 
been replaced with another man's name. But working with Ms. 
Condon and her newly-appointed team, Mr. Hopkins' problem was 
solved and the headstone was fixed in a matter of days.
    I had the privilege of paying my respects to his parents 
and seeing the new headstone and the correct names were in 
place. However, I believe this story highlights some of the 
heartache associated with the recent problems at Arlington. We 
all know that 1 year at the helm of Arlington Cemetery is not 
long enough to fix all the problems. Years, if not decades of 
neglect and mismanagement cannot be fixed overnight. However, 
with the experience the new leadership brings, great strides 
have been made.
    The troubles at Arlington existed on all levels, from 
highly publicized problems with gravesite locations, low 
employee morale and an information technology (IT) system that 
was virtually nonexistent, despite several years of development 
and millions of taxpayer dollars.
    There have already been multiple hearings of other 
Committees on the past performance issues at Arlington. I want 
to be clear: It is not my intention to rehash these issues and 
dwell on the past. My focus for this hearing will be on what 
Ms. Condon and Mr. Hallinan and the rest of the staff at 
Arlington National Cemetery have accomplished thus far since 
taking over the operations of the Cemetery, as well as how they 
plan to ensure these type of issues never occur again.
    I believe one place to start is the training of employees. 
As we all know, practice makes perfect. And I can tell you from 
personal experience, it is perfect practice that makes perfect. 
It is perfection that our veterans and their families deserve.
    I hope to hear an update from Ms. Condon about Arlington's 
efforts to provide continuing training to their employees, 
training of substance that will help prevent the Cemetery from 
repeating its past mistakes and keep employees accountable, 
knowing what the standard is and keeping it.
    I was encouraged by what I saw in my visit to Arlington 
National Cemetery earlier this spring. Every indication that I 
have received shopws there is a new attitude of performance and 
accountability at Arlington. Ms. Condon and her team have 
already put into action many changes that were needed and long 
overdue. While much has been accomplished in the last 12 
months, there is still much more hard work ahead.
    One matter of major importance has come to the 
Subcommittee's attention. This discovery on June 10th, 2011, of 
69 boxes of records and documents from Arlington National 
Cemetery in an abandoned unit of public storage facility in 
Northern Virginia. The Army's Criminal Investigation Division 
(CID) was called in and a criminal investigation is ongoing on 
this matter. I commend Ms. Condon and her staff for quickly 
informing the House and Senate Committees with oversight of 
Arlington when this investigation commenced. It is the 
Committee's desire to fully support this investigation. And I 
eagerly await the findings and the results.
    However, I am less pleased with the lack of follow-up and 
public disclosure by Arlington after the initial notification. 
Two weeks have passed with little follow up and no public 
disclosure of the incident or the investigation. We know little 
more about the incident now than was first reported to the 
Committee staff in the late afternoon of June 10th. It is my 
understanding that these were copies of grave cards and other 
documents provided to a contractor for producing a digital 
database for the Cemetery. Who this contractor was, how the 
documents wound up in a public storage facility, how long they 
had been there, who had access to the documents, what had 
become of the digital database project this contractor was 
working on and how much the contractor was paid? All of these 
questions have been yet to be answered, even though the 
investigations are directly from Arlington's own records.
    Of acute concern to me is the vulnerability of the personal 
information on these cards while they were outside the control 
of Arlington. Arlington's duty to our fallen heroes is not just 
in providing an environment of respect and dignity for final 
resting places, but also in protecting privacy, even after 
death.
    I welcome and look forward to Ms. Condon's remarks and hope 
she will offer some greater transparency and clarity to this 
situation, not only for the Committee, but for the families and 
the American people who hold Arlington in the highest esteem. 
It is for this reason that I pledge the support of the 
Committee to ensure all of last year's discrepancies cited by 
the OIG are corrected and that this dark chapter in the 
Cemetery's history is closed for good.
    I further offer the Committee's support to the Department 
of the Army, the families of those buried at Arlington, the 
veterans service organizations (VSOs), and all interested 
Americans who work together to ensure a much brighter future 
for Arlington National Cemetery and to help it once again 
become the iconic symbol of eternal respect of our Nation and 
all those who have served their country.
    I will now call on the Ranking Member, Mr. Walz, for his 
opening statements.
    [The prepared statement of Chairman Runyan appears on p. 
34.]

           OPENING STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Well, I want to thank the Chairman, his staff and 
the minority staff for putting together this important fact-
finding hearing, and quite honestly, for fulfilling our 
Constitutional oversight responsibility. I very much appreciate 
that. Ranking Member McNerney will be joining us shortly. And 
also, to Mr. Hopkins and your family, I express the deepest 
apology for something that is absolutely inexcusable. And I 
would also like to thank you and Mr. Runyan for your taking the 
time to travel here with the purpose of making sure this 
doesn't happen to another family, that is very much 
appreciated. So thank you for that.
    Arlington Cemetery, as the Chairman has so eloquently said, 
is an unparalleled national treasure, and it serves a very, 
very unique mission. From humble beginnings as a Potter's Field 
in 1864, Arlington has become the sacred burial site for many 
of America's most honored veterans, other dignitaries, 
including U.S. Presidents, Supreme Court Justices, and those 
who died in September 11th, 2001. Arlington truly has become a 
national shrine and the most hallowed of ground.
    Each year, Arlington welcomes millions of visitors from 
both home and abroad and conducts thousands of burials of the 
highest honor. However, as we are hearing, we have recently 
seen the shortcomings at Arlington Cemetery. The archaic 
recordkeeping--it is simply unimaginable that we are still 
doing business the way that we were until this new team, this 
dedicated team came on board. We were still doing it the same 
way that we were basically since the Civil War, and now moved 
somewhat forward.
    The contracting--we have oversight responsibility of that. 
We need to make sure that they can actually deliver and make 
sure we are providing that oversight of those contractors to 
make sure fraud, waste and abuse doesn't occur. And of course, 
the March 2011 Time Magazine article talking about what 
happened to Mr. Hopkins simply is the unthinkable in this 
circumstance, and I am certainly glad we are addressing them.
    The good news, I think, is that we are moving in the right 
direction. The good news is that these are problems that can be 
solved and will be solved, that is simply our mission and 
nothing less. Avoidable, yes, but we are committed to getting 
it right for all of the moral reasons, but we need to use our 
resources wisely. We have too much business to conduct and 
Arlington needs to be there for eternity, and that is exactly 
the way we are going to take it.
    I look forward to finding out more about the length of 
burial delays that I am hearing from some of my constituents 
and some of the survivors. And I think the Chairman's concern 
is absolutely founded, and I concur with him on the recently 
recovered 69 boxes of material. On multiple levels, this poses 
a real problem and I want to see if we can move forward, as the 
Chairman said. We are going to hear from a second panel after 
we hear from these two dedicated servants. We are going to hear 
from a panel that is going to tell us what we can do better and 
we need to take that very seriously.
    So Ms. Condon, Mr. Hallinan, thank you for the work you are 
doing and thank you for the service you are doing. You have 
approached your work with the passion and with the respect and 
the professionalism that we were hoping would happen. I am very 
interested to see what is going to come in the future. I want 
to see how you respond a little bit today to some of these 
things, and then we are looking for, I believe, September of 
this year we have another status report due.
    So our veterans and their loved ones deserve nothing less 
than a place of rest with surety and dignity, that is our job 
to make sure it happens. With that, Mr. Chairman, I thank you 
for your leadership and I yield back.
    [The prepared statement of Congressman McNerney appears on 
p. 35.]
    Mr. Runyan. With that being said, I ask unanimous consent 
that all Members be allowed to sit at the dais and ask 
questions. Hearing no objection, so ordered. At this time I 
would like to welcome our first panel of witnesses, Ms. Kathryn 
A. Condon, Executive Director of the Nation Cemeteries Program 
for the Department of the Army. And also Mr. Patrick Hallinan, 
Superintendent of Arlington National Cemetery.
    Ms. Condon, your complete written statement will be entered 
into the hearing record and I will now recognize you for 5 
minutes for your statement.

   STATEMENTS OF KATHRYN A. CONDON, EXECUTIVE DIRECTOR, ARMY 
   NATIONAL CEMETERIES PROGRAM, DEPARTMENT OF THE ARMY, U.S. 
DEPARTMENT OF DEFENSE; AND PATRICK K. HALLINAN, SUPERINTENDANT, 
   ARLINGTON NATIONAL CEMETERY, DEPARTMENT OF THE ARMY, U.S. 
                     DEPARTMENT OF DEFENSE

                 STATEMENT OF KATHRYN A. CONDON

    Ms. Condon. Thank you, Chairman Runyan, and distinguished 
Members of the Subcommittee. If I could take a moment right now 
to set the record straight. I did not throw myself down the 
stairs a month ago to avoid the previously scheduled hearing, 
trust me, the hearing would have been much less painful than 
what I did to my ankle.
    I want to thank you for holding this hearing today to allow 
Mr. Hallinan and I to talk about what we have accomplished in 
the past year at Arlington National Cemetery. Over the past 
year, we have implemented management changes to improve the 
organization, and to increase the quality and efficiency in the 
areas of daily operations, customer service, records management 
and most importantly, fiscal responsibility.
    As I stated in my written statement, which I would like to 
submit for the record, thank you, sir, I am confident that you 
will see that progress has been made in reestablishing the 
Nation's confidence in Arlington National Cemetery. Management 
functions have been consolidated within the Army National 
Cemeteries program. The staff under my direction as Executive 
Director have functional expertise in strategic management and 
communications, in information management, in resource 
management and in engineering.
    I am supported by ceremonial units from all of the armed 
services, a detailed staff of chaplains, staff support from 
headquarters Department of the Army, and the Arlington Ladies, 
who represent the chiefs and commandants of each Armed Service 
at each funeral. The result is now that we have clearly defined 
roles, responsibilities and relationships at Arlington.
    My staff performs both an enabling function and oversight 
role for the Superintendent's execution of daily operations. 
The intent is to enhance operations by removing administrative 
burdens from those responsible for execution. While having the 
administrative functions performed by subject matter experts, 
and clearly segregating duties to ensure proper accountability 
and oversight.
    We have focused the execution elements of the workforce by 
establishing leadership positions where none existed before. 
There are now team leader positions and job assignments to 
better manage and execute daily operations. Mr. Hallinan will 
speak to the improvements that we have made to the daily 
operation of the Cemetery.
    Customer service is the most critical priority for us at 
Arlington, to be responsive to each and every caller and to 
establish a uniform standard for scheduling, we streamline 
public interaction and telephonic communications by 
transitioning to a call center. We now document and track all 
incoming calls to the center, which has handled 31,671 calls 
since December. We receive on an average of 232 calls a day in 
Arlington. And of those each day, 45 is the average for those 
who want to schedule an interment.
    We have transitioned to a full digital interment scheduling 
organization now that has a searchable database that provides 
both the digital tool and, more importantly, a backup for the 
authoritative records.
    We have completely changed fiscal and procurement 
operations from fund certification and approvals to 
recompeting, consolidating and rewarding all of the service 
contracts that Mr. Hallinan and I inherited on 1 June of last 
year. We reduced the number of contracts from Arlington from 28 
to 16, and each and every one of those was awarded to a small 
business.
    To ensure accountability for the past, I have asked that 
the Army Audit Agency come back in, because at the end of this 
fiscal year, we want to make sure that the changes that Mr. 
Hallinan and I have both implemented are truly working and 
sufficient. So we want to make sure that an outside agency 
looks at us so we have that as well.
    Finally, we are revising our long-term master plan. In the 
10-year capital investment plan for the Cemetery, which 
includes the plan expansions for the 31 acres known as the 
millennium project. The 42 acres for the Base Realignment and 
Closure of the Navy annex, and the construction of Columbarium 
Court 9, which we will start construction this fiscal year, so 
I would like to thank the Committee for helping us with that. 
And we are also doing a comprehensive assessment of the current 
status of all of facilities and infrastructure at the Cemetery.
    We are committed to maintaining Arlington's grounds and 
infrastructure in accordance to the standards that each and 
every one of us expect of the national shine, while also 
maintaining the cemetery's viability as an active cemetery for 
those who have served our Nation.
    I hope the highlights of the actions taken and the changes 
implemented demonstrate the progress that has been and 
continues to be made to restore the Nation's confidence in 
Arlington National Cemetery.
    I would like to thank the Subcommittee for taking a 
positive leadership role in the oversight of Arlington and 
coming to visit us at Arlington to see the changes that we have 
made. Mr. Chairman, this concludes my testimony, and I look 
forward to taking questions.
    [The prepared statement of Ms. Condon appears on p. 35.]
    Mr. Runyan. Thank you, Ms. Condon. Mr. Hallinan, do you 
have an opening statement? You will be recognized for 5 
minutes.

                STATEMENT OF PATRICK K. HALLINAN

    Mr. Hallinan. Mr. Chairman, distinguished Members of the 
Subcommittee, thank you for the opportunity to speak about the 
progress at Arlington National Cemetery. One year ago this 
month, Ms. Condon and I, at the direction of the Secretary of 
the Army, set out to correct the problems identified in the 
Army OIG's report. I am pleased to report to you that 1 year 
later, we have arrived at a point where significant progress 
has been made at Arlington National Cemetery, and we continue 
on the path towards addressing and correcting all of the issues 
identified in the report.
    Much has been done, much remains to be done in the future. 
The progress that we have made to date is like permanent and 
lasting cultural and procedural changes through the way we 
carry out our mission. In the last year, we have greatly 
strengthened our interment procedures. One of the first things 
we did to prevent future burial errors was to implement new 
procedures for the chain of custody to maintain positive 
identification of casketed or cremated remains from the time 
they arrive at the Cemetery, until they are secured in their 
final resting place.
    In addition, Arlington now uses concrete urn liners, 
similar to grave liners used for caskets, which eliminates the 
risk of urns being unintentionally removed or disassociated 
from their final resting place. Arlington is the first and only 
national cemetery using urn liners.
    In terms of rebuilding the workforce, leadership has 
implemented industry standard procedures, training and 
equipment that equal the best national cemeteries. In addition, 
the new Deputy Superintendent, Mr. James Gemmell, and I are out 
daily among the workforce providing direction and guidance 
while holding supervisors, team leaders and the workforce 
accountable for operations.
    The Army has an agreement with the Department of Veterans 
Affairs that allows Arlington employees to enroll in the 
National Cemetery Administration's Training Center. We also 
provide internal and additional external training to the 
workforce. New authorized positions and employee turnover have 
afforded us the opportunity to bring in trained, seasoned 
professionals. Arlington National Cemetery has filled critical 
positions such as the Deputy Superintendent, Cemetery and 
customer service representatives.
    Arlington National Cemetery has begun operating 6 days a 
week to improve customer service and gain operational 
efficiencies. In order to meet the demand for funeral services, 
Arlington has started scheduling services on a Saturday. For 
the first time in the Cemetery's history, Saturday services are 
performed for dependent and veterans who do not require 
military honors. The steps we have taken in the past year have 
put us on the path to maintaining Arlington's position as 
America's premiere military cemetery and the sacred treasure it 
is in American history.
    This concludes my opening statement, Mr. Chairman, and I 
would be happy to answer any questions of the Subcommittee.
    [The prepared statement of Mr. Hallinan appears on p. 39.]
    Mr. Runyan. Thank you very much, Mr. Hallinan. I will begin 
the questioning and recognize the Ranking Member and other 
Members in alternating order of arrival.
    Ms. Condon, I think there is a little tension in the air 
over our newfound issue there at Arlington. I know there is an 
ongoing criminal investigation there. I don't know what you are 
able to tell us, but please fill us in as much as possible.
    Ms. Condon. The records are part of an ongoing criminal 
investigation, and it was related to a previous contract to 
digitize Arlington's paper records. On the 9th of June through 
our newly implemented call center, we received a telephone call 
from the storage facility owner. Immediately upon receipt of 
that call, we called Army CID to go and see what was at the 
storage facility. Army CID did, at that time, secure the 69 
boxes of records. When they brought the 69 boxes of records, 
which were just scans of the previous digitized effort that was 
part of that contract, we immediately called in the Department 
of the Army's information assurance organization to make sure 
that there wasn't any personal identifying information 
challenges there. The recommendation, when we looked at the 
scanned records, was that the issue there was rated low, 
because my immediate concern, as Mr. Hallinan's was, that there 
could possibly have been identifying information in those boxes 
and we would have immediately at that initial time contacted 
everyone. But the information assurance people said the threat 
was low because there were just scanned copies of a previous 
contract that we had to digital records.
    The other information, sir, that you asked about who was 
the contract, how much was the contract, that with is all part 
of the ongoing investigation. And as soon as we get the results 
of that, we will share it with the Committee.
    Mr. Runyan. Thank you very much. I am sure it is part of 
your stressful situation of digging out of someone else's hole. 
I give you credit for that. We know it is not where we want to 
be. But it is a necessary job that we all have to do to really 
get Arlington back on the pedestal that it needs to be on. And 
I applaud both of you for that, but I would appreciate and hope 
that you report back to this Committee when you find any 
information, because quite frankly, it is about people who gave 
their lives for our country and sacrificed a lot for us to have 
these freedoms, to have arguments like this all the time.
    I say I look forward to it, but I see another round of 
hearings like this one that are going to be ongoing as we go 
through this process.
    I know when I was out there visiting this spring, I believe 
you had two gentlemen there that were active duty that were 
basically your IT guys. I know they were going to be reassigned 
at some point. Have you been able to fill those positions with 
qualified people and pick up where they left off?
    Ms. Condon. Sir, fortunately, the uniformed individuals 
that are part of our IT staff are still with us, and I am going 
to replace them with other uniformed IT guys. But the good news 
is that we have been able to hire the complement of our IT 
staff with very, very dedicated, experienced professionals in 
everything from GIS to records management to information 
assurance. So we have built the civilian and military team in 
IT.
    Mr. Runyan. Okay. Thank you.
    I know the next panel will have a lot on this, but when we 
have the VSOs we always talk about stakeholders. Have you 
instituted a more formalized customer service survey, to really 
get the feedback and help you in your process, because I know 
we all have a great idea when we started, but it is ultimately 
the customer that helps us polish it?
    Ms. Condon. Sir, as a matter of fact, we have our new IT 
staff on our Web site we have a place where anyone can comment 
on their experiences at Arlington National Cemetery, which is 
our first way of reaching out to the customer. Also, our public 
affairs staff is currently working on an outreach program to 
our VSOs, et cetera, so that we can get the stakeholder 
feedback as well. We are also planning to revise our Web site 
so that we can have better information flow to the American 
public. And we are working on a survey that we give to each and 
every family member after their service so that they can 
provide us the necessary feedback that Mr. Hallinan and I need 
for continued process improvement at the Cemetery.
    Mr. Runyan. Okay. Mr. Hallinan, you commented on Mr. 
Gemmell's hiring. Can you kind of discuss some of the 
complications and challenges. You have been in the industry a 
long time of finding qualified individuals, which obviously 
lacked in the last management team.
    Mr. Hallinan. Mr. Chairman, we face the same difficulties 
any Federal agency would face in trying to bring new people on, 
but one thing is unique about Arlington in its mission is we 
have literally had hundreds of people applying for various 
positions. So the caliber of people we are going to get to 
choose from is among the finest in the Nation and specifically 
in regards to Mr. Gemmell, with his many years of cemetery 
experience, being the Cemetery director. Also, Mr. Gemmell was 
the director of the National Training Center. So to reinforce 
your statement, your opening statement, sir, this year will be 
about train, train and training the employees. Set a high 
standard, train to that standard, then hold people accountable 
to that standard. That was the intent of bringing him and 
others on. We have been successful.
    Mr. Runyan. It sounds like you are stealing everybody away, 
though.
    Mr. Hallinan. Only the good ones.
    Mr. Runyan. One last question for Ms. Condon. You were 
talking about the transition and the Internet scheduling 
system. Has it been seamless and smooth, and do you have 
everyone trained up and able to have it working in that optimal 
range?
    Ms. Condon. You know, sir, I am not going to say it was 
completely seamless without its challenges, because, as you 
know, a year ago they were literally using paper records and a 
Selectric typewriter. I am very proud to say that we have now 
completely transitioned to a digital scheduling system. We have 
gone paperless, and the workforce are all using the system. It 
was what you have emphasized, it is training, training and 
training. And, you know, so I am proud to say today that we 
have gone digital in our scheduling system.
    Mr. Runyan. Thank you very much. With that, I will 
recognize the Ranking Member, Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman, and again, thank you 
both for the work you are doing.
    It is very difficult, I appreciate you taking this on. I am 
just even reading how we write about these things talking about 
how to identify the misplaced urns. You misplace your keys, you 
do not misplace the remains of a hero. I am trying to figure 
out have all the families involved in this been notified? If 
there has been heroes or loved ones misplaced or misidentified? 
Is there anybody in America where their family members are 
interred at Arlington and got misplaced as the team that came 
up there indicated, or have they all been notified?
    Ms. Condon. Sir, the family members for which you are 
talking about when we did discover the eight urns that were 
identified in that one gravesite. The family members of the 
individuals that we have been able to identify the remains of 
their loved ones have all been notified. They were notified 
immediately upon receipt that it was actually their loved one, 
because we had the forensic lab from Hawaii who did that for 
us.
    We are still waiting for the closeout of that 
investigation, because they were trying to see if they could 
look into every possible lead to identify the other urns that 
we have not identified.
    Mr. Walz. What is changed in your best practices and chain 
of command to make sure that this never happened again? If I 
asked you, Mr. Hallinan, to turn around and tell anyone who is 
in this room or listening, how do we assure this won't happen 
again?
    Mr. Hallinan. Well, sir, I would say standards and 
procedures are being put in place along with supervision and 
monitoring and accountability. When it comes specifically to 
disassociation of urns and how could that happen, we have had 
backhoe operators go and excavate a gravesite with very little 
information. One of the standards that is in place right now 
that gives me full confidence that people are being interred 
correctly, and these urns and gravesites are being protected, 
that individual has a complete readout of that gravesite that 
he's about to open; what is in that gravesite? What depth? What 
type of container? Is it a cremation? Where is the cremation 
located? We probe for cremation before we go into a gravesite.
    Mr. Walz. For every single site at Arlington now?
    Mr. Hallinan. Yes, sir. But additionally, one point I would 
like to make because it is extremely important both for the 
Subcommittee and for the American people, when I mention the 
use of concrete urn liners, that is going to prevent and 
eliminate disassociation of remains so we do not face that 
again. Those urns are being protected, they are secured. And 
the probability of them being dug up and disassociated from the 
gravesite has been eliminated with that practice, so that is a 
very important standard that is in place right now.
    Mr. Walz. What type of services do we contract for? What 
are the private sector contractors, what type of jobs are they 
being asked to do at Arlington?
    Ms. Condon. Sir, most of our service contracts are in the 
area of the lawn in agriculture, our tree maintenance, our 
mowing, et cetera. And then we have some of our operational 
services that fall under Mr. Hallinan that are also contracted. 
If you want to expound on those, Pat.
    Mr. Walz. Do contractors handle remains in the chain of 
command?
    Mr. Hallinan. Absolutely not, sir. Of the contracts that 
are in place from an operational sense of ground maintenance, 
are mowing, trimming, headstone washing and headstone raising 
and realigning. There were issues in the past that this 
Subcommittee is aware of with contracting, but under Ms. 
Condon's direction and support, every contract of the 16 that 
are in place right now have certified contracting officers 
monitoring those contractors. The contractors also have my 
oversight where I am out in the sections and I am monitoring 
the mowing, the trimming, are they setting those headstones 
correctly, are they aligned horizontally and vertically, are 
they set to a new standard of 23 to 26 inches? So there is full 
oversight and accountability for the contractors.
    Mr. Walz. How many employees do we have, government 
employees at Arlington?
    Ms. Condon. Go ahead.
    Mr. Hallinan. Approximately 124, sir.
    Mr. Walz. Is that correct number that we need to make sure 
that this is carried out efficiently, effectively, with dignity 
and with accuracy?
    Mr. Hallinan. Congress has authorized additional employees, 
we are in the process of bringing that staff on. We are looking 
for the best that we can find in the industry. I think what has 
been authorized will be enough to accomplish the job.
    Ms. Condon. And sir, if I may, one of the things that 
Secretary McHugh directed when Pat and I started was a complete 
manpower survey review from the Army.
    Mr. Walz. And that is happening?
    Ms. Condon. And that has already been happening, it has 
already been completed. And the number they came up with was 
157 employees is truly the number that you need to do the 
mission correctly and we are hiring to that number.
    Mr. Walz. I will end with one if we come back around again. 
Has this Congress, this Committee or any regulations put any 
unfunded mandates on you that can be perceived as pulling away 
from your core mission?
    Ms. Condon. Sir, not--you know, not to date that I have. I 
mean this Committee has been nothing but helpful in helping Mr. 
Hallinan and I move forward to make the changes that we do need 
in Arlington.
    Mr. Walz. Very good, thank you both again. I yield back.
    Mr. Runyan. Thank you, Mr. Walz. Mr. Stutzman.
    Mr. Stutzman. Mr. Chairman, I think Mr. Johnson was here 
before myself.
    Mr. Runyan. I will gladly go, but seeing how you are a 
Member of this Subcommittee, we will allow you to go first, he 
is a guest.
    Mr. Stutzman. Oh, is that right? Thank you. I would always 
be glad to defer to my good friend anyway.
    Mr. Runyan. I am sure you will both yield each other your 
time.
    Mr. Stutzman. Thank you, Mr. Chairman. And thank you for 
being here today. I guess I would like to touch on the boxes 
just a little bit and have several questions on that. Whose 
doing the investigation?
    Ms. Condon. The Army Criminal Investigation Division 
command, sir.
    Mr. Stutzman. And do you know have there been any other 
boxes--you don't have any record that these boxes were stored 
off site; is that correct?
    Ms. Condon. Sir, the first time that we knew that the 
records were stored off site was when we received the phone 
call to the Cemetery from the current owner of the storage 
facility.
    Mr. Stutzman. So that is not typical practice then?
    Ms. Condon. That is not--I can't tell you what the practice 
was prior to Mr. Hallinan and I being there, but, sir, anything 
that Mr. Hallinan and I would do with records, we would make 
sure that the records were secured and accounted for.
    Mr. Stutzman. I know we will probably find out a lot more 
information once the investigation is done. So as far as you 
are aware, there are no other boxes that are stored anywhere 
outside of your facilities that you know of?
    Ms. Condon. Sir, to date, I do not know of any other, but, 
you know, every day Mr. Hallinan and I are discovering things 
that we wouldn't have expected to discover yesterday.
    Mr. Stutzman. Do you happen to know how many members' 
records were stored in those boxes yet? Is that something they 
will be notified that their records were off site and they need 
to be aware of that?
    Ms. Condon. Sir, as I stated when I was answering the 
Chairman's questions, we had an assessment from our information 
assurance agency to review if there was there the potential for 
a personal identifying information to have been compromised. 
The bottom line is we are going to go through each and every 
one of those records, but they were copies of records from 
every scanned record from the past. So the bottom line is a lot 
of the individuals on those records, their next of kin would no 
longer be with us to notify.
    Mr. Stutzman. Okay, all right. Can you address the lack of 
the standard operating procedures (SOPs) and practices before 
you arrived at ANC? And what steps have you taken to address 
these issues, Mr. Hallinan?
    Mr. Hallinan. Based on the OIG's report and my short time 
on the ground when I first arrived, it was clearly evident that 
there were no standard operating procedures, written operating 
procedures in place. The training would be anecdotal. You would 
learn from the person next to you who would show you manually 
how to accomplish a task and that would vary from individual to 
individual. I was surprised by that. The steps we have taken 
immediately was to stabilize Arlington National Cemetery, which 
was to get out with the workforce, and show them the proper 
procedures, push them and pull them, if you will, through the 
correct steps so that they can learn and implement right away.
    Basically I have used the analogy of an aircraft carrier at 
sea, taking it in, and option to take it in and drydock it and 
overhaul it. It was not an option so we had to train and 
operate simultaneously. We have done so and we have put written 
standard operate--we have a long way to go. We put this in the 
beginning stage, we put standard procedures in place, we are 
putting policies in place.
    So this will give us a way forward for the future long 
after Ms. Condon and I are gone, Arlington will have a positive 
future going forward. These things will be in writing, they can 
be refined from time to time, as technologies change, as 
processes change, the employees will have ownership of the 
work, but at the most fundamental level we started that 
process, yes.
    Mr. Stutzman. And I know it is very difficult with the 
Cemetery being open to the public. Can you describe the 
security situation with respect to Arlington and protecting the 
Cemetery while still keeping it open to the public?
    Ms. Condon. Sir, if I could address that, please, one of 
the major concerns that I had upon taking over the executive 
directorship was how porous the Arlington Cemetery was because 
it truly is an open site. We had a study conducted for force 
protection and security in July of last year. As a result of 
that study, we have awarded a contract to make sure that we 
have an up-to-date surveillance system for the Cemetery.
    We are creating an operations center and communication so 
we can have mass notification for not only our workforce, but 
for also our visitors and our families who enter the Cemetery. 
We are working on those security measures as we speak.
    Mr. Stutzman. Good, thank you very much, I yield back.
    Mr. Runyan. Thank you, Mr. Stutzman. Mr. McNerney, are you 
ready?
    Mr. McNerney. Yes. Thank you, Mr. Chairman. First, I want 
to thank Mr. Walz for stepping in. Mr. Walz is a tireless 
advocate for veterans and I appreciate your hard work.
    Ms. Condon, I want to thank you for coming here today, and 
I think you have changed the tone there at Arlington, you and 
Mr. Hallinan together. There was some unfavorable reports in 
the last few years and I think you have really made a 
difference to turn that around. I realize it is a big 
undertaking, I mean, there are hundreds of thousands of our 
heroes that are interred there and creating a filing system 
that can be accessed is not an easy task. So what I would like 
to know is what is your assessment of where we are in that 
process? I mean, I can't imagine how big of a job it is, so 
hopefully, the question hasn't been asked too many times 
already.
    Ms. Condon. No, sir, you are the first one to ask that 
question. Just so you know, we have established an 
accountability task force at the Cemetery. It is a total Army 
effort. It has soldiers from the old guard, Department of the 
Army civilians, and military who are detailed to us to work on 
the accountability as well as our summer interns, and we are 
hiring some temporary employees.
    The bottom line is we are currently looking at a resolution 
of all the gravesites and records. We are imaging the entire 
cemetery using geospatial information. And we will have a full 
accounting of not only each and every gravesite, but it will be 
matched and delegated against each and every record. We have 
started that process. We are taking a photo of each and every 
headstone front and back. We are going to have that on a 
Smartphone application where it will tie to the data. We have 
started that process and will be reporting out to Congress in 
December for that. We are well on our way, and I am very 
pleased with the progress to date.
    Mr. McNerney. I can tell by your voice and your mannerisms 
how excited you are about this, so thank you for that. Some of 
the other cemeteries that I have been around the country are 
fairly accessible. You used to have a computer screen and you 
type in the name and it shows you how to get there. I didn't 
see photographs of gravestones--that is a whole another level, 
so thank you for that work.
    Mr. Hallinan, is there something you would like to 
recommend to this Committee in terms of how we could help you 
serve better in terms of what your objectives are?
    Mr. Hallinan. Sir, this Subcommittee has been supportive, 
and without offering a specific, I think when we look at the 
challenges we face and issues we are dealing with, we could 
speak freely to the Subcommittee as we can in this forum, we 
would say we need support and we need patience, because we are 
about the people's business. We are good stewards. I am a 
veteran, Ms. Condon has dedicated her life to the Nation's 
military. You do have good stewards in place who have the 
passion and who are professionals, and will hold that Cemetery 
not only to the highest standard, but restore the faith of the 
people in the Cemetery.
    So this Subcommittee has been supportive, but based on the 
challenges, we need some patience to allow us to work through. 
As the Chairman pointed out, 1 year on the ground, boots on the 
ground is early on when you look at the many years there have 
been problems at Arlington.
    Mr. McNerney. I guess either one of you could take this 
one. When somebody has a need or request to bury a recently 
deceased veteran, what kind of customer service, if that is the 
one word you want to use, do they run into when they try to 
contact the Cemetery for----
    Ms. Condon. Sir, you weren't here in my opening remarks 
where I said we now have implemented a case management call 
center at Arlington, so that every phone call if you are 
calling for directions or you are calling for eligibility 
questions, or if you are actually calling to schedule 
interment, we now are tracking each and every one of those 
phone calls in assigning that a case number and then we call 
back the family there.
    As I stated before, our priority is customer service. We 
now can tell you on the average of 47 people a day call to 
schedule an interment, of which Mr. Hallinan, you know, 
conducts 27 to 30 a day. So that tells you that there are 17 
more people calling in a day than we have time slots to do 
their burial.
    One of the advantages of having a call center and tracking 
every phone call in every schedule is what we now know how many 
people are calling and that are no longer are those calls being 
dropped. So it is really pushing out the time that we can 
accommodate the burials. But to me that is not such a bad news 
story because people are not getting impatient that their phone 
call was not answered, which was what happened in the past.
    Mr. McNerney. Thank you my time has expired. I want to 
thank the Chairman for calling this hearing today, it is an 
important subject.
    Mr. Runyan. Thank you, Mr. McNerney. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman and thanks to the rest 
of the Subcommittee for allowing me to participate today. And 
Ms. Condon, and Mr. Hallinan, thank you, folks, for being here.
    You know, I am very concerned about the 69 boxes of what 
has been described to me as grave cards, which typically 
contain very sensitive information like a veteran's full name, 
Social Security number, and date of birth and other 
confidential information. I find it extremely troubling that 
boxes containing this kind of information were left unsecured 
and only discovered allegedly, due to a lack of payment for the 
use of the storage facility.
    I am even more disappointed, as the Chairman pointed out 
earlier, that we have had a lack of follow up to inquiries from 
this Committee, from you, Mrs. Condon, over the last couple of 
weeks. As a former military guy myself of 27 years and as a 
veteran, and as Chairman of the Oversight and Investigations 
Subcommittee, rest assured I take this breach very seriously, 
and I will be actively pursuing this issue. I do have a few 
questions.
    I have heard 69 boxes, I have heard 22 boxes. What is the 
right number?
    Ms. Condon. Sir, the right number is 69 boxes.
    Mr. Johnson. Okay, you mentioned earlier that what was 
actually contained in the boxes and deemed as not having an 
information security issue were scanned, copies, correct?
    Ms. Condon. Yes, they were photocopies of records, sir.
    Mr. Johnson. Photocopies of grave cards?
    Ms. Condon. Yes, sir.
    Mr. Johnson. Don't photocopies of grave cards have Social 
Security and that kind of sensitive information on them?
    Ms. Condon. The information on those are of the deceased 
members, sir, they do have active Social Security numbers.
    Mr. Johnson. Yeah, so it's typical grave card information, 
Social Security number, date of birth, those kinds of things?
    How can that deem to be not a security issue? I spent 
nearly 30 years in the Air Force safeguarding information 
myself, formerly as the chief of the Chief Information Officer 
(CIO) department for U.S. Special Operations Command. Social 
Security numbers are sensitive information. How could it have 
been deemed that that is not a security breach of information?
    Ms. Condon. Sir, because the individual was deceased so the 
Social Security number--in most of the cases, they were records 
from the past and the Social Security number would no longer be 
a valid number.
    Mr. Johnson. Well, yeah, don't we still safeguard that 
information?
    Ms. Condon. We do safeguard that information.
    Mr. Johnson. What is the security process for safeguarding 
paper records? You say that you have gone digital and paperless 
thus far, what is your typical process for safeguarding the 
paper copies? What do you do with those?
    Ms. Condon. Sir, the paper copies that we currently have 
now are on our facility of which we safeguard them by locking 
up the facility every evening.
    Mr. Johnson. So they are on site?
    Ms. Condon. They are on site. But sir, as we transition to 
being totally digital, we are going to take all of the current 
paper records and put them in a secure Army storage facility.
    Mr. Johnson. Okay. Who has jurisdiction over this 
investigation? I know you said who is conducting the 
investigation as far as you are concerned, but who has 
jurisdiction? Is it CID or Department of the Interior, who is 
it?
    Ms. Condon. Sir, our Army Criminal Investigation Division 
is doing that investigation. And I would have to take that for 
the record, if I may, if there is jurisdiction other than the 
Army?
    [The DoD subsequently provided the following information:]

    L  CID has investigative jurisdiction and responsibility 
for allegations of criminal acts related to Arlington National 
Cemetery.

    Mr. Johnson. Okay. Can you provide a little bit more 
information about the contractor and the contract that they 
were completing in regards to these boxes? Are you permitted to 
say here who that contractor is?
    Ms. Condon. Sir, no I am not, because that is part of the 
ongoing investigation.
    Mr. Johnson. Okay. Can you tell us when the contract was 
awarded and are they still under contract?
    Ms. Condon. Sir, I can tell you that they are no longer 
under contract, but the other details are part of the 
investigation, and I do not have that with me.
    Mr. Johnson. Have you reviewed the contract that this 
contractor was working under?
    Ms. Condon. I personally have not, but it was a part of a 
contracting review that Secretary McHugh had directed, and it 
has been reviewed by the Army.
    Mr. Johnson. Do you know if there were any conditions for 
the security of records specified in the contract?
    Ms. Condon. No, sir, I do not?
    Mr. Johnson. Mr. Chairman, I am out of time, but have a 
whole lot of questions that I guess we will have to get to in 
another context, but thank you for the time. I yield back.
    Mr. Runyan. Thank you, Mr. Johnson. And I think we are 
going to do another round because I have some more questions so 
you may get to some of them.
    Going down that same line of questioning, Ms. Condon, do 
you have any idea--has the CID given you any idea when they 
intend to complete the investigation?
    Ms. Condon. No, sir, they have not.
    Mr. Runyan. Okay. And reading the testimony of the next 
panel, they give you very high marks on your progress thus far, 
but they are hesitant to the communication breakdown. How do 
you respond to those suggestions and what can be done to 
improve that situation?
    Ms. Condon. Sir, as I stated before, we are going to be 
reaching out to all of the VSOs and to our constituents to put 
Committees together and we have already conducted town halls, 
et cetera, so that we can share information. As I stated, 
customer service is our priority, we have a long way to go. We 
had to fix, what I said before, the foundation of Arlington 
first, and now we are going to take this next year and beyond 
to the next step where we truly, you know, make sure that we 
work on how we deal with our stakeholders, our family members 
and the loved ones who have someone buried at the Cemetery.
    Mr. Runyan. Thank you. And Mr. Hallinan, here in the VA, 
and Secretary Shinseki always talks about accountability. It is 
the first word out of his mouth. And I think a lot of times we 
have a hard time implementing it. Can you give us examples of 
working with your contractors in the Cemetery and how they are 
being held accountable to the standards your team has set up?
    Mr. Hallinan. Yes, I can. Currently, the contract I will 
use, the mowing contract and some of the grounds maintenance 
contracts, the statements of work have been rewritten to make 
them more stringent. The contracting representatives that have 
oversight have been trained and certified, they are out there 
daily monitoring that contractor. The contractor hits a 
headstone or damages the turf, we will hold that contractor 
accountable. We are looking for them to meet the contract and 
meet the high standards included in that statement of work. So 
as we have set the standard for our own employees, Mr. 
Chairman, to reach the highest standards, we are also holding 
contractors to those same standards.
    I think this is something new for the contractors. They 
have been quite surprised, I believe, by how proactive and the 
monitoring that is taking place now.
    Mr. Runyan. Do you have any examples of actual discipline?
    Mr. Hallinan. Well, I will give you an example of when 
gravesites are sodded by this contractor, they do turf repair, 
he was bringing in a piece of equipment that I felt was too 
large, that weighed too much, that was actually causing damage 
to the gravesite. So he would go in to water a gravesite and 
potentially and did damage other gravesites. So we have 
restricted him from using that machine and made him repair the 
gravesites that he damaged. But we had to work through the 
contracting process to hold that contractor accountable and we 
have done so.
    Mr. Runyan. And I know you are a big proponent of the 
training center, the VA training center in St. Louis, how many 
of the employees have been through that program and what is the 
planning for the rest of them to attend it?
    Mr. Hallinan. In my former lifetime, Mr. Chairman, I was in 
charge of that National Training Academy. So we do have a 
signed agreement with the Secretary of the VA and the Secretary 
of the Army. I would say 10 to 15 percent of workforce has gone 
out to that academy to be trained. Ms. Condon's goal and my 
goal is to look at all the key positions and within a 36-month 
cycle, get those employees out for formalized training the 
training academy. But one thing I would like to point out under 
Ms. Condon's leadership and working with the supervisors on 
site, this week we have 4 of our senior equipment operators, 
which is more than 50 percent of the senior equipment operators 
in Arlington National Cemetery are out in Peoria, Illinois, 
being trained by Caterpillar to the highest industry and 
commercial standards.
    So it is not just the VA that we have partnered with. We 
are sending our people out to be professionally trained. And we 
are looking for even more opportunities to have the people 
trained by outside sources, as well as the programs internally 
to train them on a daily basis. So we are going at a great 
pace, we have accomplished much, and as I said, we still have a 
lot to do. I would say to the Subcommittee, we are probably 
looking at a 36-month cycle to all the people trained up, and 
get the standard operating procedures in place and completely 
change the culture, and that is the goal.
    Mr. Runyan. Thank you for that. Mr. McNerney, do you have 
any further questions?
    Mr. McNerney. Sure I have a couple, Mr. Chairman. Ms. 
Condon, is there any firm record of when those 69 boxes were 
first put into storage?
    Ms. Condon. Sir, that is part of the investigation, I do 
not know when they were put in that storage to date.
    Mr. McNerney. But as far as you know, that will likely come 
out with the investigation----
    Ms. Condon. Sir, I assume that it will.
    Mr. McNerney. Mr. Hallinan, how many interments a day do 
you conduct about?
    Mr. Hallinan. We average 27 to 30 interments a day.
    Mr. McNerney. When these take place, are there situations 
where there is crowding, where one is not out of the way before 
the next one begins, are they typically held out of site of 
each other in different parts of cemetery? How do you handle 
this sort of backlog in terms of crowding?
    Mr. Hallinan. There are logistics challenges dealing with 
the amount of interments that take place, and the final 
footprint that Arlington is on right now. A lot of the first 
interment and active interment sites are located in one area, 
sir. So there is a coordination and logistics problem or 
challenge for us. I would say in a majority of cases, that is 
not an issue, they are accomplished well and the families are 
quite pleased with the honors they receive and interment. But 
there are those places where we need to be careful, because of 
the amount of interments and the close proximity that we keep a 
close eye on the coordination.
    Funerals that require full military honors, there is a 
strict time frame, they can be late, family members can be late 
and there can be delays, and it creates the potential for 
funerals to be too close to one another, but we are aware of 
the issue and we look to correct it. Right now we are on a 
small footprint, sir, when we conduct the first interments 
right now.
    Mr. McNerney. There have been incidents across the country 
where there have been demonstrations held at cemeteries, does 
that ever happen during interments? Has that ever happened at 
Arlington?
    Mr. Hallinan. Not to my knowledge, sir. Outside of the 
gates? Yes, but not at an actual interment, no, sir.
    Mr. McNerney. When problems are found on gravestones, do 
you have the authority just to make the change, or do you have 
to notify families or how does that procedure work?
    Mr. Hallinan. If we find a problem on a gravestone, we have 
the ability and the authority to make that change. But if it is 
something of a significant nature, it would be more of the 
interment; if there was an issue on the interment, that is when 
we would notify the families when we spoke about the cremation 
issue. If there is an error on a headstone, a date of birth of 
date is wrong, a date of death is wrong and we look at the 
records, the family gives us that information, the family signs 
for that information, and that information does not match what 
the family signed for, we can correct that internally.
    Mr. McNerney. Thank you. No more questions.
    Mr. Runyan. Thank you, Mr. McNerney. Mr. Stutzman.
    Mr. Stutzman. Thank you, Mr. Chairman. It seems like there 
was a desire from the VSOs for better communication, have you 
instituted a formalized or survey and analyzed its results or 
since you have taken over?
    Ms. Condon. Sir, I have not, but that is truly one of the 
things that we are working on with, I just finally staffed our 
public affairs office so that we now have the person power to 
actually reach out to put together our stakeholder forums, et 
cetera.
    Mr. Stutzman. The next panel in some of their 
recommendations has suggested creating an e-mail list to notify 
spouses of events and changes of protocol, rules of policy, is 
this feasible to do?
    Ms. Condon. Sir, that would be really hard, but one of the 
things that we are currently working on is really altering and 
changing the current Web site at Arlington. So what we will do 
is we will use, that is the main way that we contact for people 
to get information. E-mailing each and every individual as just 
the numbers and the sheer volume would really be with the staff 
we have right now a task that would be impossible to do at the 
current time.
    Mr. Stutzman. Do you have any idea what the number might be 
if you were to try?
    Ms. Condon. Sir, I would have to do some analysis on that 
and get back to you on what that would be.
    [The DoD subsequently submitted the following information:]

    L  There are approximately 7,000 individuals interred each 
year at Arlington National Cemetery. Creating an e-mail list 
would involve multiple family members for each of these. Based 
on two family members per interment, we estimate that a list 
spanning 20 years of interments (e.g., 1990-20n to current w00 
e-mail 
addresses.

    Mr. Stutzman. Okay. And then also, what about possibly 
putting together an advisory group of VSOs to get their 
feedback more quickly and to be more responsive to them, has 
that been discussed?
    Ms. Condon. That has currently been discussed with my new 
public affairs team where we really do want to get a group 
together of our VSOs and have an advisory group where we can 
share information and they can provide feedback to make 
Arlington even better than it is today.
    Mr. Stutzman. I think that is really important. Any 
communication helps clear up miscommunication and 
misunderstandings, and I know the VSOs are obviously very 
interested in wanting to communicate, so I would definitely 
recommend that personally. Thank you, I yield back.
    Mr. Runyan. Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman. Just a couple of things 
on procedure now that you are in place, the way you are 
handling this. In March, it was indicated there were 3,500 
grave reservations on file, some which may not be valid. We 
have had concerns from some folks that they have a legitimate 
reservation and now it is not being handled as such.
    How are we working through that after that story came out 
of reservations that were given in an improper context than 
they should have? Where are we at on that status?
    Ms. Condon. Sir, as you know, we have grandfathered those 
reservations that were made prior to 1962, and we honor those 
based on the current eligibility for burial at Arlington, so we 
are taking care of those. As part of our Accountability Task 
Force, we are looking at all of the other potential 
reservations that could be--in checking to see if they still 
are valid and open, and so we are taking care of it that way as 
part of the accountability of each and every gravesite at 
Arlington.
    Mr. Walz. This might be for you, Mr. Hallinan, or either 
one of you. How long does it take on an average to get a burial 
time?
    Mr. Hallinan. It all depends on the type of honors that are 
going to be rendered. It can take anywhere from a couple of 
weeks to 3 to 4 months, sir.
    Mr. Walz. And is priority given to current warriors?
    Mr. Hallinan. Absolutely.
    Mr. Walz. Those are done immediately. A veteran of a 
previous conflict might have to wait?
    Mr. Hallinan. That is correct, yes.
    Mr. Walz. Without sounding callous but being also pragmatic 
here, who pays to wait the storage, if you will, before that 
burial happens? How does that work? If a veteran, an honor, 
someone who meets all the eligibility, that are ready to be 
buried and they are told it will be 4 months from now, how does 
that work?
    Mr. Hallinan. The cost will be incurred by the family, sir, 
a normal arrangement. Whether it is Arlington National Cemetery 
or another national cemetery, there is a wait involved.
    Mr. Walz. I can't speak on the best practice of this. Is 
that a reasonable amount of time to wait? I ask that in all 
earnestness, that I don't know if that is a reasonable amount 
of time if it ends up being months.
    Mr. Hallinan. It has been a normal wait time for Arlington 
National Cemetery, but that is something that Ms. Condon and I 
are looking at, with a goal of reducing the wait time.
    Mr. Walz. I appreciate that. I ask because I don't know 
that if that is a normal wait time and if a family understands 
it, because I hear from some of them that we didn't know we 
would have to incur this expense during that time period we 
were waiting for interment so I appreciate that.
    I yield back, Mr. Chairman.
    Mr. Runyan. Thank you, Mr. Walz. Mr. Johnson.
    Mr. Johnson. Thank you, Mr. Chairman. Ms. Condon, when did 
you come to your position?
    Ms. Condon. June 10 of 2010, sir.
    Mr. Johnson. The storage facility--now, you say your 
current process does not involve off-site storage facilities 
for the purpose of safeguarding paper records, they are all on 
site.
    Ms. Condon. Yes.
    Mr. Johnson. Who was paying this storage fee of this off-
site storage location?
    Ms. Condon. Sir, that would be part of the investigation. I 
do not know, but I would have to take that one for the record.
    [The DoD subsequently provided the following information:]

    L  The storage location was rented by Mr. Greaux.

    Mr. Johnson. You don't know that it was coming out of your 
Department, you don't know who that was?
    Ms. Condon. Sir, I do not.
    Mr. Johnson. This contractor that was involved, is that 
contractor still under contract in any way with the Department 
for anything else?
    Ms. Condon. Sir, I cannot speak for the Department, but 
they are not under contract at Arlington.
    Mr. Johnson. Okay. Do you know if they are under contract 
within any other part of the Department of the Interior?
    Ms. Condon. No, sir, I do not. I would have to take that 
one for the record.
    Mr. Johnson. I would appreciate it if you would take all of 
those questions for that.
    [The DoD subsequently provided the following information.]

    L  No, OS is no longer in business and neither it nor its 
owner have any current contracts with DoD.

    Mr. Johnson. This particular contractor, do you know if 
they completed all of their work under the terms of that 
contract?
    Ms. Condon. Sir, that is part of the ongoing investigation.
    Mr. Johnson. Do you know whether or not they were paid in 
full for the terms and conditions of their contract?
    Ms. Condon. No, sir, I do not.
    Mr. Johnson. You don't know, or you can't say?
    Ms. Condon. Sir, I do not know all of the specifics there, 
but that is part of the ongoing investigation.
    Mr. Johnson. Ms. Condon, in all due respect, it frustrates 
me just a little bit to get, ``We can't talk about this because 
it is an ongoing investigation.'' We are not just an interest 
group, this is a Congressional panel. We hear classified 
information all the time. I am not sure I understand that.
    Ms. Condon. Sir, if I had the information and could share 
it I would, but I do not have the details of that.
    Mr. Johnson. Okay.
    Mr. Johnson. Do you know who the owner of that storage 
facility is?
    Ms. Condon. Sir, we do know who the owner was because he 
was the one who contacted us about finding the records that 
were there in the storage facility.
    Mr. Johnson. And is it true that the reason they contacted 
your office was because of the lack of payment for the storage 
fee? Is that what originally----
    Ms. Condon. Yes, sir, that is.
    Mr. Johnson. One final question here, I think. You know, I 
do applaud your Department's level of transparency in regards 
to this investigation with us. Why, though, did ANC not decide 
to release this information to the public?
    Ms. Condon. Sir, at the time when we did the original 
investigation on the information assurance part of that, if 
there was a potential where we thought that there was current 
personal identifying information, we would have immediately 
notified not only the families but we would have put a press 
release--and because of the ongoing investigation, that was the 
reason why we did not put a public press release out.
    Mr. Johnson. When was that information assurance evaluation 
conducted?
    Ms. Condon. Sir, it was done immediately when we had the 
records in our facility.
    Mr. Johnson. Okay. And when was that?
    Ms. Condon. Sir, we got the phone call on the 9th and we 
had them do the review on the 10th.
    Mr. Johnson. The 9th of June?
    Ms. Condon. The 9th of June.
    Mr. Johnson. Do you have any idea when to expect CID, 
assuming that they are indeed the agency with jurisdiction, are 
going to complete their investigation; have they said?
    Ms. Condon. Sir, they have not given me a date when they 
are going to complete the investigation so I do not know.
    Mr. Johnson. Okay. I have no further questions, Mr. 
Chairman. Thank you again.
    Mr. Runyan. Thank you, Mr. Johnson.
    I guess we can see your team is--we hope it doesn't happen 
again, but you are still finding things hidden. It has been a 
long year for you, I can imagine. But, I think a lot of us 
agree when we look at the progress you have made and the 
structure you have put in place, we are moving in the right 
direction. We just hope it does not keep getting set back by 
new bad findings day in and day out.
    So I thank you for your hard work and your dedication, and 
also Mr. Hallinan, for your service to this country. Thank you 
both. And with that, Ms. Condon and Mr. Hallinan, on behalf of 
the Subcommittee, I thank you both for your testimony and we 
look forward to continuing to work with you as we work through 
this difficult process on these very important matters. You are 
both excused.
    I ask the next panel to please come forward. Good 
afternoon. With this panel we will be hearing first from Ms. 
Christina Roof, the National Acting Legislative Director for 
AMVETS. Then we will hear from Ms. Ami Neiberger-Miller, the 
Director of Outreach and Education for the Tragedy Assistance 
for Survivors (TAPS). And finally we have Dr. Vivianne Wersel, 
who is the Chair of the Government Relations Committee for Gold 
Star Wives of America, Incorporated (GSW).
    We appreciate your attendance today and your complete 
statements will be entered into the record.
    Ms. Roof, you are now recognized for 5 minutes for your 
statement.

 STATEMENTS OF CHRISTINA M. ROOF, NATIONAL ACTING LEGISLATIVE 
DIRECTOR, AMERICAN VETERANS (AMVETS); AMI D. NEIBERGER-MILLER, 
DIRECTOR OF OUTREACH AND EDUCATION, TRAGEDY ASSISTANCE PROGRAM 
  FOR SURVIVORS; AND VIVIANNE CISNEROS WERSEL, AU.D., CHAIR, 
  GOVERNMENT RELATIONS COMMITTEE, GOLD STAR WIVES OF AMERICA, 
                              INC.

                 STATEMENT OF CHRISTINA M. ROOF

    Ms. Roof. Thank you. Chairman Runyan, Ranking Member 
McNerney, and distinguished Members of the Subcommittee. On 
behalf of AMVETS, I would like to extend our gratitude for 
being given the opportunity to share with you our views, 
personal experiences, and recommendations regarding the issues 
at Arlington National Cemetery.
    As we are all aware, last year the Army's Office of the 
Inspector General performed a detailed investigation into the 
activities that were occurring at Arlington National Cemetery. 
What the OIG uncovered directly affected AMVETS' membership and 
the families of countless others who have laid a loved one to 
rest at Arlington National Cemetery. AMVETS was saddened and, 
quite frankly, upset over the findings that OIG--excuse me, 
over the findings OIG released on the numerous disgraceful 
wrongdoings occurring at ANC. Furthermore, AMVETS is still at a 
loss for words as to how ANC's sacred grounds could have ever 
been so blatantly mismanaged in a way that showed absolutely no 
respect or care for the remains of our Nation's fallen heroes.
    While AMVETS is eager to read OIG's follow-up report to the 
investigation in September, we still believe we must voice our 
concerns and problems experienced by our membership last year, 
if only in an effort to give our membership peace of mind and 
comfort to know their experiences are heard and understood.
    AMVETS believes that it is important to preface our 
statement with the fact that we are not aware of all the 
improvements that have occurred at ANC as we, too, are awaiting 
the follow-up report. However, concerns we share with you today 
are still just as important and personal as they were a year 
ago. AMVETS strongly believes that the issues at ANC are a 
direct result of a broken chain of command, outdated 
technology, absence of updated internal policies, and failure 
to codify numerous operational policies and procedures. AMVETS 
finds it unacceptable that ANC has moved between multiple Army 
agencies over the past 30 years and yet no one agency or 
individual ever raised a concern or red flag about the 
happenings at ANC.
    Furthermore, AMVETS believes that with the constant 
shifting of oversight at ANC, the Army has failed to maintain 
regulatory ``proponency'' in ensuring ANC was being run in 
direct compliance with Army Regulation 25-30. The Army's 
failure to enforce compliance to their own regulations, coupled 
with the failures of ANC's leadership to adhere to all 
regulations and to update internal SOPs, has resulted in our 
current situation in Arlington National Cemetery today.
    The command and leadership structure for ANC was last 
codified in AR 290-5 in 1980, as well as in title 32, section 
553, which was last updated in 1997. Although outdated, AR 290-
5 in title 32 clearly outlines a delegation of responsibility 
to all the agencies involved with the care of ANC.
    However, in 2004 the Army published General Order (GO) 13. 
This is entitled ``Army National Cemeteries.'' AMVETS concurs 
with OIG's statement that ``GO 13, at best, dilutes the 
responsibility, accountability and authority'' of the 
organizational structure at ANC. However, what AMVETS does not 
understand is why the leadership of ANC failed to formally 
address the discrepancies in the updated policies compared to 
the old; or better yet, why they do not make an effort to come 
to Congress so that these disgraceful events will be prevented 
from ever happening again.
    Often updated policies and procedures do add confusion to 
past policies that have been in place. However, most 
responsible Federal agencies immediately address and fix these 
problems so that discrepancies--and fix the discrepancies. They 
don't choose to ignore them as ANC did. And I am starting to 
wonder if maybe it is still happening, as the information that 
the Chairman put forward today.
    Numerous AMVETS members and their families have been 
personally affected by the mistakes that took place at ANC. 
AMVETS still continues to receive calls from our membership 
wanting to know if their loved one's remains are being properly 
cared for.
    So with that being said, I would like to share with you 
what I have witnessed personally and experienced on a personal 
level through my interactions with those most affected by this 
ordeal.
    Although we have tirelessly searched, AMVETS cannot find 
the proper words to explain to this Committee what it feels 
like to try and comfort our members so stressed over what they 
have seen in the news regarding mismarked headstones and 
improper care for remains, or even start to accurately express 
to you the feelings of uncertainty and fear these families have 
experienced.
    While we can discuss the technical and legislative aspects 
of what has happened at ANC over and over in hearing after 
hearing, we must never forget that behind all of our 
discussions on policy and procedures are actual people such as 
these two brave women sitting next to me today and many of the 
members in the audience today.
    Again, AMVETS understands that there is new leadership at 
ANC and we look forward to working with them to assist them in 
any problems they may have. We also look forward to working 
with this Committee in assisting you in whatever way possible.
    Chairman Runyan and distinguished Members of the 
Subcommittee, this concludes my testimony and thank you for 
allowing me to go over.
    Mr. Runyan. Thank you Ms. Roof.
    [The prepared statement of Ms. Roof appears on p. 41.]
    Mr. Runyan. Ms. Neiberger-Miller.

              STATEMENT OF AMI D. NEIBERGER-MILLER

    Ms. Neiberger-Miller. Thank you. Mr. Chairman and Members 
of the Subcommittee, I am submitting testimony today on behalf 
of the Tragedy Assistance Program for Survivors, known as TAPS. 
Founded in 1994, TAPS is the national organization providing 
compassionate care for all affected by a death in the Armed 
Forces.
    I am the TAPS Director of Outreach and Education and my 
ties to Arlington National Cemetery are deeply personal. My 
father-in-law, Marine Corps Captain Norman Miller is buried in 
section 66, one of the sections identified in the OIG report as 
having significant discrepancies. My 22-year-old brother, Army 
Specialist Christopher Neiberger, was killed in action in Iraq 
in 2007 and is buried in section 60. So I have been at 
Arlington on the worst day of my life and it is deeply 
connected to all of us.
    In my testimony, I will share some of the experiences of 
families, offer feedback about management, and provide 
suggestions for improvement.
    Reactions among families of our fallen military and 
deceased veterans to the Office of Inspector General's report 
fell across a broad spectrum. There was anger, concern, 
confusion and no road map to guide our families or the Army. 
Some were so deeply grieving that to doubt a loved one's burial 
gravesite was impossible for them emotionally, and instead they 
would just turn off the news.
    At TAPS, we have supported families coping with burial 
discrepancies at Arlington, and I will cite an example. Two 
months ago we were contacted by a veteran seeking to confirm 
that his late wife was in her marked gravesite. He said to me, 
``Although my fears are not completely dissolved by Arlington's 
assurances, I know that certainty can only be achieved by 
disinterment and DNA testing, and I am not prepared for such an 
invasive solution, I will just have to live with the 
uncertainty that Arlington's mismanagement has created and hope 
that my late wife and I are interred together.'' That is a 
truly sad statement.
    While some have questioned why the Cemetery has not taken 
invasive steps more frequently in all of this, this example 
illustrates exactly how difficult resolving burial 
discrepancies can be and why the Cemetery's approach, leaving 
decisions on invasive measures to families, is the right one.
    When we saw the Cemetery staff struggle over the last year, 
it was not with conducting routine burials, which they do at a 
very high level of excellence, but it was under unusual 
circumstances. TAPS provided support to two families who did 
pursue disinterment's due to suspected burial discrepancies. At 
the first disinterment, the family's fear was correct and other 
gravesites were disturbed to locate their loved one's remains.
    In the second case, our staff were actually present at the 
disinterment. The family's son was buried in the correct 
gravesite. And at the time, our staff questioned the conduct of 
the Cemetery staff in how the disinterment was handled. We 
believe that the leadership learned from this experience and 
modified procedures.
    In a third situation, our staff supported a reinterment. 
When the family arrived, the gravesite was not dug and the 
service delayed.
    In two of these cases, there was a lack of communication 
with the service branch by the Cemetery staff. While much 
laudable progress has improved services for families and 
accountability at the Cemetery today, much remains to be done 
to satisfy the Office of Inspector General's 76 findings and 
101 recommendations.
    I would rate the team at Arlington National Cemetery about 
40 percent of the way to the goal line. I expect that most of 
the deficiencies will be corrected within the next 2 years.
    We were also asked to comment on the future of Arlington. 
TAPS would not oppose the transfer of Arlington National 
Cemetery to the VA. In our experience, surviving families 
placing their loved ones at VA cemeteries have high 
satisfaction rates. But at the same time, we are also pleased 
to continue working with the Army, and we would seek to work 
cooperatively with any agency managing the Cemetery.
    We also offer the following recommendations:

        Pursue all legal means allowable to render a full 
        accounting of burial locations.

        Write new rules for the Code of Federal Regulations.
        Involve a focus group of bereavement professionals 
        and policies for burial discrepancies.

        Involve grief counselors alongside staff talking 
        with families who are coping with burial problems, and 
        for the long term, set up an advisory group of VSOs 
        similar to the group that advises the VA's National 
        Cemetery Administration.

        Improve the Cemetery's Web site and resources, and 
        do hold town hall meetings in cooperation with us and 
        the other VSOs for families.

        And improve relationships among the different 
        service branches that are rendering honors at the 
        Cemetery.

    We can't go back and undo decades of mismanagement and poor 
recordkeeping, and we have to find a way together, forward, as 
a community that supports the surviving families of our fallen 
military and our veterans. Thank you.
    [The prepared statement of Ms. Neiberger-Miller appears on 
p. 43.]
    Mr. Runyan. Thank you Ms. Neiberger-Miller. Dr. Wersel.

          STATEMENT OF VIVIANNE CISNEROS WERSEL, AU.D.

    Dr. Wersel. Chairman Runyan, Ranking Member McNerney, 
Members of the Committee, I am pleased to testify on behalf of 
Gold Star Wives. Our intent is to inform this Committee of our 
Arlington experiences as well as the importance of Ms. Kathryn 
Condon's active role to help identify problems and gaps to 
improve the ceremony for others.
    I am Dr. Vivianne Cisneros Wersel, Chair of the Government 
Relations Committee and surviving spouse of Lieutenant Colonel 
Rich Wersel, Jr., United States Marine Corps, who died suddenly 
a week after returning from his second tour of duty in Iraq.
    I became a stakeholder of Arlington the day my husband was 
interred, 23rd February 2005. As his surviving spouse, I 
acquired the benefit to be buried with him when I die. When we 
sent our husbands off to war, we spent time planning for their 
homecoming, not their funeral. We never purchased the book what 
to expect when you bury your husband at Arlington.
    For those who have not endured this experience, I will 
share with you my story and stories of other Post-9/11 
surviving spouses. It was a day that deeply reflected our 
wedding, till death do us part. Many of us endured unfortunate 
experiences with the interment process, such as the wait time, 
paperwork for the headstone, and the lack of information about 
the protocol of the ceremony. This occurred while wading 
through our grief, and unfortunately disrupted the integrity of 
the ceremony.
    We consistently hear from our members that the wait for a 
burial can be a most difficult period. Nicole lost her active-
duty husband 24 February 2011. His civilian funeral was the 
following week; however, he could not be buried in Arlington 
until June due to the wait time. Her husband was placed in 
storage. His burial is occurring as I speak, just shy of 4 
months, and many of our members are with her today.
    In addition to the financial cost of storage, there is an 
emotional toll on the family. We seek to raise awareness to the 
Committee as well as Arlington so that the situation can be 
improved for the wait time and issues with storage.
    We are also aware of the fiasco of mismarking of many 
graves. Some of our surviving spouses asked for verification in 
the placement of their loved ones. Arlington handled the calls 
with dignity. A cross-reference check was done to help provide 
the families some peace of mind.
    We are not aware of how the reconciliation process is 
validated. And as told, in 2010 Ms. Condon held a town hall 
meeting to listen to our concerns. Throughout the meeting, Ms. 
Condon was truly involved in the discussions to best answer our 
questions. The majority of concerns pertained to the procedural 
issues such as paperwork for the headstones. Many were rushed 
and frazzled. Some were merely questioned if the information 
presented was accurate. And we are not informed of options of 
personal inscriptions.
    In my case, the Arlington representative asked me to review 
the workshop--excuse me, the worksheet when we were staging for 
the ceremony. I corrected the information and was unaware of 
options but had the fortitude to ask for the inscription 
``Loving Husband and Father.'' However, in haste I forgot he 
was also a loving son.
    Christian lost her husband in Afghanistan in 2010 and was 
never told she could have inscriptions, and was rushed through 
the paperwork as well.
    The role of the representative needs to be more personal 
and active with the arrangements to assure the quality, 
dignity, and the honor of Arlington is maintained. We seek 
improvement of this process. There has been a lack of 
communication when policy changes with lithochrome headstones 
and headstone scriptures such as Operation Iraqi Freedom versus 
Operation New Dawn. Also, the clarification of who may be 
buried in section 60, why some were denied placement prior to 
Ms. Condon's leadership when there was no existing policy.
    Ms. Condon also presented an Arlington brochure that was in 
the final stages waiting for approval. This brochure is vital 
for a vital part of communication for the grieving family. Ms. 
Condon did her best to address all concerns. This meeting was 
very cathartic and a good beginning for making amends.
    GSW offers the following recommendations: Decreasing the 
wait time for interment; addressing long-term storage of the 
servicemember; training for the Arlington representatives; 
improving communications, starting with a brochure; 
establishing e-mail lists; notifying survivors of events, 
changes in protocol policy and rules; implementing working 
groups as stakeholders to address the concerns; hosting 
scheduled town hall meetings.
    We are pleased to have Ms. Condon and the Army as the 
gatekeepers for Arlington. GSW recommendations are suggested to 
help improve the quality of the service of the interment of 
Arlington, to inspire trust and exceed the stakeholder's 
expectations, and to decrease the understanding of the 
stakeholder's needs.
    I am proud and honored to say that my final address will be 
2761 near the corner of Arnold and Eisenhower, section 66, 
Arlington National Cemetery. Thank you for the opportunity to 
present testimony, and I can answer any questions you may have.
    [The prepared statement of Dr. Wersel appears on p. 52.]
    Mr. Runyan. Thank you, Doctor.
    Let's start the questions now. As we are moving forward and 
as I said in my opening statement, I believe we all concede 
that there were a lot of problems and a lot of heartache in the 
past. I think we are now moving in the right direction. And as 
we go through the communications, the wait time and all that, 
which I think Mr. Walz addressed earlier also in some of his 
questioning, have your members noticed an improvement in the 
operations, communications and all that? And I will start with 
you Ms. Roof.
    Ms. Roof. To the best of my knowledge our membership has 
not seen any improvements or any worsening.
    Mr. Runyan. Ms. Miller.
    Ms. Neiberger-Miller. I would say we worked cooperatively 
with the administration prior to Ms. Condon and Mr. Hallinan as 
well. But one of the things that we observed, I actually had 
suggested the e-mail list that Dr. Wersel suggested to 
Superintendent Metzler probably 3 years ago. And we actually 
use a family grapevine essentially to distribute information, 
which is often not entirely foolproof, in getting information 
to families.
    But I would say that for many of our families, being able 
to call into a call center where calls are tracked is very 
helpful. Knowing that no one is going to go into a senseless 
voicemail area; that their calls will be returned, I think is 
very important.
    And when we proposed a town hall meeting to Ms. Condon upon 
meeting with her after she arrived at Arlington, she very 
enthusiastically endorsed that idea and agreed to participate. 
And TAPS facilitated that town hall meeting and invited other 
organizations and families to be part of it. So I just find 
that attitude to be very helpful. But we also did work 
cooperatively with the previous leadership as well.
    Mr. Runyan. Dr. Wersel, do you have anything to add to your 
testimony? I think you answered it in your testimony.
    Dr. Wersel. I can tell you this, that the attitude has 
changed. If you give us a chance to voice the inequities or 
even the emotional feelings that a survivor goes through, it 
does help mend. And it is not until you start sharing stories 
with other survivors that you realize, wow, this is broken. And 
I honestly thought that my case was an isolated case. And what 
happens is that when you are active-duty military and there is 
a death, you lose your military friends and your new family 
becomes the Arlington family.
    Most of us relocated to the Arlington area to be close to 
our loved one. My close family friends are our Arlington. And 
so we have been able to exchange our stories, and it hasn't 
changed in 5 years. So what the healing process to that is, we 
have been able to talk about it. But what is more important is 
to be able to share it with those who can make a difference, 
and that is the leadership of Arlington, because if we can make 
change we have to be able to voice our opinion.
    Mr. Runyan. Thank you.
    Ms. Neiberger-Miller, you said in your statement that you 
feel Arlington is about 40 percent of the way to the finish 
line. Is it just a matter of time or do you think they are 
being slowed down by obstacles.
    Ms. Neiberger-Miller. I think it is a combination of both 
factors. When you look at the OIG report, which is incredibly 
extensive, with 76 findings and 101 recommendations, and the 
problems that were identified were sweeping and systemic and 
they were cultural, to change all of that overnight is 
extremely difficult. And I think it is very reasonable to 
believe that it probably would take them a total of about 3 
years to address all of those concerns. They were sweeping and 
massive. That may not be very fast, but I think is helpful.
    Mr. Runyan. Do you feel there is any specific OIG 
recommendations that you or your organization specifically feel 
haven't been addressed?
    Ms. Neiberger-Miller. I would like to see some more 
movement forward hopefully on some of the policy and regulatory 
issues that were identified in the OIG report. Perhaps it is 
because of my background working with a major university with 
lots of policies. Because without those policies in place for 
how Arlington is supervised, how Arlington is managed for 
policies within the Army, you don't have a firm foundation to 
build on there.
    And I know there are some significant legal challenges I 
believe for them in working out all of that for the Code of 
Federal Regulations, but it would be nice to see that move 
forward.
    Mr. Runyan. And Dr. Wersel, do you see any benefit or need 
of any type of a special liaison or anything that could, pre- 
and post-interment help the family out?
    Dr. Wersel. I think so. I think we need--as a liaison, that 
person can be the advocate to make sure no one slips through 
the cracks. Just like I had previously stated, some of us have 
inscriptions on our headstones, some of us don't. As a liaison, 
they can make sure that the family is getting the information 
they need, if they are not quite sure of the protocol of the 
ceremony and that information has been provided, that liaison 
person can step in or even follow up and find out what went 
wrong.
    But I think it is important to have some type of check and 
balance and accountability system in order to improve it for 
all families.
    Mr. Runyan. Well, thank you very much. With that, I will 
recognize the Ranking Member, Mr. McNerney.
    Mr. McNerney. Thank you, Mr. Chairman.
    Thank you for coming here to talk to us today. Ms. Roof, 
you were here for Ms. Condon's testimony. Did any of what she 
said give you any reassurance that things are changing there in 
terms of what you are looking for?
    Ms. Roof. It was good to hear that there is a system of 
updating SOPs, and it was actually very reassuring to hear them 
say that there were no SOPs in place when they took over. So 
hearing that they have updated internal policies is very 
reassuring. However, I am going to have to agree with their own 
testimony that, while much has been done, there is still much, 
much more to be done.
    Mr. McNerney. Do you think that the customer service 
hotline, or customer service is better now in terms of people 
that need to communicate with the ANC?
    Ms. Roof. I think the idea of the hotline is good, and it 
is a lot better than it was before. However, I would like to 
see a lot of that energy and effort that went into establishing 
that hotline to establishing something, like the Chairman had 
said and the ladies touched on, you know, a liaison; because 
while a hotline is great, there are other things that need to 
be addressed as well.
    Mr. McNerney. Thank you. Ms. Neiberger-Miller, what do you 
think could be done or would be the most important thing to do 
in terms of improving the service?
    Ms. Neiberger-Miller. Improving service for families?
    Mr. McNerney. Yes.
    Ms. Neiberger-Miller. I would like to see a liaison in 
place, similar to what Dr. Wersel discussed. You know, 
especially for active-duty deaths, the family is often in 
tremendous shock, and they are there and having to make 
decisions very rapidly about their headstones and about the 
ceremony. Even if they were informed about it, they may not 
remember it, they may not even recall it. So having a liaison 
in place I think would be very helpful.
    Mr. McNerney. Thank you. Ms. Cisneros Wersel, you mentioned 
something about long-term storage. What is long-term storage?
    Dr. Wersel. Say, for instance, our Nicole, who her husband 
is being buried today, that is 4 months of storage and that is 
pretty costly. And I believe the way the policy is, is that she 
is responsible for the payment. The Army doesn't--the way the 
procedure goes, they pay once the servicemember is interred, so 
there is a fee. And the funeral service directors vary in fees. 
Maybe it is gouged, but they do vary.
    And Nicole, it just so happened, and I did do some 
following up. And the funeral director where he is, the price 
was very reasonable. They weren't gouging her. But over 4 
months it does add up, and that is very costly for the family.
    And, yes, there is the gratuity that the family receives 
for this unexpected expense, but still that is something that 
needs to be addressed. If there is 4 months of storage, is 
there an expected amount that should cost for storage? And that 
should be looked at. It varies.
    Mr. McNerney. You are at the mercy of a local funeral 
director, basically.
    Dr. Wersel. Exactly. And you can't go shopping and 
changing.
    Mr. McNerney. So there should be some standards. All of you 
may have a chance to answer this--is your working relationship 
with the current leadership satisfactory in terms of 
communication and responsiveness? We can start with you Ms. 
Wersel, Doctor.
    Dr. Wersel. The interactions we had with her in October was 
fantastic. I wanted to see more. I wanted to have another forum 
or another form of a follow-up, and where we are today, what is 
the status of that brochure, what is the status of how they are 
slowing down the process, the protocol of--or just even sharing 
the protocol to families. You know, how has that process 
changed?
    But I would have liked to have seen a follow-up on what our 
recommendations were at that time with that meeting, what was 
discussed. And the protocol for you all who don't understand, 
you have no idea what to expect except somebody is going to 
give you a flag--you remember that part--and, you know, you get 
to sit down, and that is about all you get a grasp of.
    And I will tell you a story that is a little funny and a 
little embarrassing, because I didn't realize the protocol. And 
they were going to give me a flag, and that part I got, while I 
was sitting there, the Marine Colonel came down and knelt down 
to give me the flag. So she is handing me the flag and she 
leans over toward me closer to my face. Well, I am Latin, I am 
thinking she is going to kiss me. So I came very close to 
giving her a little peck on the cheek, and what she was going 
to do was whisper in my ear. I had no idea she was going to 
whisper in my ear the delivery of--for a grateful Nation. So I 
was really thrown off the whole rest of the ceremony. I had no 
idea.
    So as far as the communication with Arlington, I would like 
to know--getting together with Arlington, Ms. Condon, her 
staff--to know what is their role in providing information to 
the casualty officer, to the family; who has got the ball of 
providing that information to the family. And that is a 
communication process that needs to be improved. I would like 
to see that improved and more communication with Ms. Condon's 
staff.
    Mr. McNerney. And if you will allow me, what will be the 
best way for them to communicate with you?
    Dr. Wersel. Again, the forum. To have a stakeholder's 
meeting to find out or to have a liaison where they are meeting 
with casualty officers or the casualty officer, who is the 
person that is supposed to provide the protocol to the families 
on what to expect. Again, when we had babies we read that book, 
What to Expect When You Are Expecting. We knew what we were 
going to do.
    We did not know what to expect with Arlington. And you 
can't do that funeral again, you can't do it again; it is done, 
it is over with.
    So I would like to see what is in place to provide that 
information to brief the families on a ceremony that is only 
done once.
    Mr. McNerney. Thank you. My time is expired. I yield back.
    Mr. Runyan. Thank you Mr. McNerney. Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman.
    Well, thank you all first for being here, but most 
importantly, thank you for always being such staunch supporters 
of our veterans and their families and our survivors.
    I thought Superintendent Hallinan made a really powerful 
statement, and something I am really glad to see. It tells me 
that there is a massive cultural change going on. This idea of 
getting policies in place, which each of you spoke about, to 
ensure continuity long after he and Ms. Condon are gone, long 
after this Committee is gone, because this has to be about 
forever of trying to get this right, the best that humans can 
do that.
    So I think, and I think, Ms. Roof, you pointed out in your 
testimony, and I agree with you on this, this is going to take 
some collaboration and coordination. Army Pamphlet Example 
1087, I think it is, is 20 years old now, and it is in direct 
contradiction to General Order 13 on how to do these funerals. 
There needs to be this collaboration.
    It sounds to me like in our previous panel, there is 
getting cooperation with each of the services, because they are 
responsible for their part of the burial, and the casualty 
assistance officer and everything that goes with that. I think 
this Committee, along with our friends over in Armed Services 
could advocate a little push to the Army to update their 
manuals, to streamline and standardize them, and to bring them 
into that SOP alignment you are talking about.
    Do you think that helps fix some of these things? I will 
let Ms. Roof start and then just if anyone else wants to.
    Ms. Roof. I do, I really do. First, like you said, updating 
them, going through and reviewing--for lack of a better term, 
sorry, the word escapes me--which don't work together. And then 
not only updating but going ahead and codifying the ones that 
need to be codified.
    I think a lot of these things could have been avoided if 
there were actually laws in place instead of this pamphlet, 
that pamphlet. So I think it would be a good start.
    Mr. Walz. Well, I would agree with you. Taking checklists 
and things, I think all of us, especially dealing with military 
people, that checklists are the way to go. Because I struggle 
with this. I certainly find it hard to believe someone was that 
callous or whatever. But if you don't have systems and 
redundant safeguards in place, these types of things can kind 
of happen on their own. And that is unacceptable. And that is 
why these types of things are not just writing them down to 
please us or whatever. They are the absolute standard operating 
procedure so there is going to be no deviation.
    So I agree with you. I was very happy to hear that with Mr. 
Hallinan. But I think we maybe need to push a little bit, 
because this is going to cross over into that, whatever it is 
at DoD, that I don't even know what happens there to try and 
get these types of things done, with some of these directives 
to be finished. So I appreciate that.
    Again, I thank you all. We are taking away some good things 
on this. I do again commend the Chairman and the Ranking Member 
for holding this. I think it is what the public expects. We had 
an unthinkable situation here, but our responsibility was to, 
first, fix it; second, to make sure it never happens again; and 
I think we are on the path to doing that.
    And again, if you hear some frustrations, Mr. Johnson was 
expressing some frustrations, the Chairman, myself, it is 
because we all know this is absolutely a zero-sum game. Every 
single burial must be perfect. We may never reach that goal, 
but it is one we set for ourselves. It is obvious that the new 
administrators and leadership accept that responsibility and 
are achieving that. And so you are right to come here, keep us 
on track to get there, but we are making progress.
    So with that, I yield back, Mr. Chairman.
    Mr. Runyan. Thank you, Mr. Walz. And ladies, on behalf of 
the Subcommittee I thank each of you for your testimony. We can 
definitely tell not only by your testimony and the emotion that 
you each expressed it with, that there is something wrong there 
that I think is being addressed. And I think we can agree on 
it.
    We all agree that a human probably can't turn it around 
fast enough, and that is a frustrating part. As I said in my 
opening statement, I was made very aware of this by my 
constituent, Mr. Hopkins, early on in my still, I suppose, 
rather new Congressional career. So it was an honor having all 
of you here. Thank you for your testimony and you are excused.
    I ask unanimous consent that all Members have 5 legislative 
days to revise and extend their remarks and include extraneous 
material. Hearing no objection, so ordered. I thank the Members 
for their attendance today and the hearing is now adjourned.
    [Whereupon, at 4:15 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

            Prepared Statement of Hon. Jon Runyan, Chairman,
       Subcommittee on Disability Assistance and Memorial Affairs

    Good afternoon and welcome. This oversight hearing of the 
Subcommittee on Disability Assistance and Memorial Affairs will now 
come to order.
    We are here today to monitor the progress of the new administration 
at Arlington National Cemetery after taking over following the shocking 
revelations in last year's Army OIG Report.
    Before we get started however, I would first like to recognize Mr. 
Richard Hopkins.
    Mr. Hopkins is a constituent of mine who has traveled from Marlton, 
NJ, to be with us here today.
    Today's hearing is of great interest to Mr. Hopkins because his 
parents are buried at Arlington Cemetery.
    I got to know Richard shortly after he discovered that the wrong 
headstone marked his parents grave.
    He was understandably upset. As his Congressman I turned to 
Arlington for answers.
    Working with Ms. Condon and her newly appointed team, Mr. Hopkins' 
problem was resolved and the headstone fixed.
    I had the privilege of paying my respects to Mr. Hopkins' parents 
and seeing the new headstone with the correct names in person.
    I believe this story highlights some of the heartache associated 
with the recent problems at Arlington.
    We all know that 1 year at the helm of Arlington National Cemetery 
is not long enough to fix all of its problems.
    Years, if not decades of neglect and mismanagement cannot be fixed 
overnight, but with the experience the new leadership brings, great 
strides have been made.
    The troubles at Arlington existed on all levels--from the highly 
publicized problems with gravesite locations, low employee morale, and 
an IT system that was virtually non-existent despite several years of 
development and millions of taxpayer's dollars.
    There have already been multiple hearings by other Committees on 
the past performance and issues at Arlington.
    I want to be clear that it is not my intention to re-hash these 
issues and dwell on the past.
    My focus, and that of this hearing, is on what the current 
administration at Arlington National Cemetery have accomplished thus 
far since taking over operation of the cemetery and how they plan to 
ensure these types of issues never occur again.
    I believe one place to start is on the training of employees. As we 
all know practice makes perfect, and perfect is what our veterans and 
their families deserve.
    I hope to hear an update from Ms. Condon about Arlington's efforts 
to provide continuing training to their employees.
    Training of substance that will help prevent the cemetery from 
repeating its past mistakes and keep employees accountable; knowing the 
standard and keeping it.
    I was encouraged by what I saw on my last visit to Arlington 
National Cemetery earlier this spring.
    Every indication that I have received is that there is a new 
attitude of performance and accountability at Arlington.
    Ms. Condon and her team have already put into action many changes 
that were needed and were long overdue.
    And while much has been accomplished in just 12 months, there is 
still more hard work ahead.
    I pledge the support of this Subcommittee to ensure all of last 
year's discrepancies cited by the OIG are corrected. I believe we all 
want this dark chapter in the cemetery's history closed for good.
    I further offer the Committee's support to the Department of the 
Army, the families of those buried at Arlington, the Veterans Service 
Organizations and all interested Americans to work together to ensure a 
much brighter future for Arlington National Cemetery as the iconic 
symbol of respect our Nation has for all who have served their country.
    I would now call on the Ranking Member for his opening statement.

                                 <F-dash>
  Prepared Statement of Hon. Jerry McNerney, Ranking Democrat Member, 
       Subcommittee on Disability Assistance and Memorial Affairs

    Thank you Mr. Chairman.
    Arlington National Cemetery is an unparalleled national treasure 
that serves a very unique mission.
    From humble beginnings as just a potter's field in May 1864, 
Arlington National Cemetery became the preferred burial site for many 
of America's veterans and other dignitaries including U.S. presidents, 
Supreme Court justices, and many of those who died in the attack on 
September 11, 2001, Arlington has become a national shrine.
    Each year, Arlington National Cemetery welcomes millions of 
visitors from both home and abroad and conducts thousands of burials of 
the highest honor.
    However, as we've recently uncovered, we are falling far short of 
our national commitment on many fronts in Arlington National Cemetery. 
In particular:

    1.  Archaic Record Keeping--Arlington needs to update its 
antiquated system so that there is no doubt where any veteran is 
buried. It is way past time to move to a fully electronic system.
    2.  Contracting--Arlington needs to make sure that those with whom 
it contracts actually have the ability to deliver the desired end 
product or service.
    3.  Mistaken Identities--Numerous articles in the past months, 
particularly a March 23, 2011 Time Magazine article, highlight the 
cases of mistaken identities in various gravesites as well as mismarked 
graves due to avoidable burial errors.

    Mistakes like these simply need not happen.
    They are as avoidable as they are awful, and they rob us of time 
that could otherwise be spent ensuring that our Nation's heroes are 
properly laid to rest.
    These mistakes also rob those who are left behind of the peace of 
mind they deserve.
    Today, I look forward to finding out more about whether and why 
there are lengthy burial delays as has been reported by some survivors.
    I also want to learn more about the 69 boxes of burial records 
recently found at a commercial storage facility by the owner who 
happened upon them in an abandoned unit--a fact that the ANC 
voluntarily disclosed to the Committee. How did they get there, and 
what, if anything, does this mean for the security of possible 
identifying information and the integrity of gravesite locations?
    Finally, I'd like to know what Congress can do to improve these 
situations.
    I am heartened by the dedication that Ms. Kathryn A. Condon, the 
Executive Director of the Army National Cemeteries Programs, brings 
with her, along with Mr. Pat Hallinan, the newly installed 
Superintendant.
    I am hopeful that the Army National Cemeteries Program can avoid 
additional future shortcomings under their leadership.
    I look forward to hearing an update on your December 2010 report to 
the DoD Inspector General and also where you plan to be in September 
2011, when your next report is due.
    Our veterans and their loved ones deserve a 21st Century, world 
class burial system that supports their final place of rest with 
surety.
    Thank you to our panelists for appearing today. I look forward to 
working with you to maintain our promise to those who gave so much for 
our country.
    Thank you, and I yield back.

                                 <F-dash>
      Prepared Statement of Kathryn A. Condon, Executive Director,
       Army National Cemeteries Program, Department of the Army,
                       U.S. Department of Defense

    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for the opportunity to provide an update on progress at Arlington 
National Cemetery.
                              INTRODUCTION
    Arlington National Cemetery is both the most hallowed burial ground 
of our Nation's fallen and one of the most visited tourist sites in the 
Washington, DC, area. A fully operational national cemetery since May 
1864, Arlington National Cemetery presently conducts an average of 27 
funerals each workday-final farewells to fallen heroes from the fronts 
of Iraq and Afghanistan, as well as to veterans of World War II, the 
Korean conflict, Vietnam and the Cold War and their family members. 
While maintaining the honor, dignity and privacy of each graveside 
service, Arlington National Cemetery hosts approximately 4 million 
guests annually. This duality of purpose serves to bring the national 
shrine of Arlington National Cemetery, and the sacrifices of those 
buried there, closer to the American people.
    As the agency responsible for these two cemeteries, the Army is 
committed to rendering public honor and recognition through dignified 
burial services for members of the Armed Services and other qualified 
deceased persons where they may be interred or inurned in a setting of 
peace, reverence and natural beauty. On behalf of the cemeteries and 
the Department of the Army, I would like to express our appreciation 
for the support that Congress has provided over the years.

                               LEADERSHIP

    I believe that the update that the Subcommittee requested can be 
most directly addressed by explaining how we have executed, and 
continue to execute, our leadership responsibilities. Army Field Manual 
6-22, Leadership, defines leadership as ``the process of influencing 
people by providing purpose, direction, and motivation while operating 
to accomplish the mission and improve the organization.''
    Our statement explains how we have provided purpose and direction 
by establishing a clear and comprehensive vision and supporting mission 
statement. It continues by explaining how we have implemented 
management changes to improve the organization and increase the quality 
and efficiency. The impact of these changes is best described by 
reviewing the standards that have been established and their results in 
the areas of daily operations, customer service, records management, 
and fiscal responsibility. This leads us to a discussion of sustaining 
the cemetery for the future to be able to achieve the vision. In the 
end, I am confident that you will see the progress that has been made 
and the foundations for reestablishing the Nation's confidence in 
Arlington National Cemetery.

                           VISION AND MISSION

    We have provided purpose and direction by establish a clear and 
comprehensive vision for Arlington National Cemetery that defines the 
desired future state:
    America's premier military cemetery

    <bullet>  A national shrine
    <bullet>  A living history of freedom
    <bullet>  Where dignity and honor rest in solemn repose.

    While the vision provides the long range goal that the organization 
is striving for, the mission is essential to provide clarity for daily 
operations. The mission is:

          On behalf of the American people, lay to rest those who have 
        served our Nation with dignity and honor, treating their 
        families with respect and compassion, and connecting guests to 
        the rich tapestry of the cemetery's living history, while 
        maintaining these hallowed grounds befitting the sacrifice of 
        all those who rest here in quiet repose.

                           MANAGEMENT CHANGES

    To successfully accomplish the mission and put Arlington National 
Cemetery on the path to achieve the vision, there have been several 
management changes.
    These changes started immediately at the top by clearly delineating 
roles, responsibilities and relationships. As Executive Director of the 
Army National Cemeteries Program I am a direct report to the Secretary 
of the Army, and is responsible to effectively and efficiently develop, 
operate, manage and administer both Arlington and the Soldiers' and 
Airmen's Home National Cemeteries. The Superintendent of Arlington 
National Cemetery is my direct report, responsible to effectively and 
efficiently manage and execute daily operations.
    Management functions have been consolidated within the Army 
National Cemeteries Program. The staff under my position as Executive 
Director has functional expertise in strategic management and 
communications, information management, and resource management. I am 
supported by ceremonial units from the Armed Services, a detailed staff 
of chaplains, staff support from Headquarters, Department of the Army, 
and the Arlington Ladies who represent the Chief's and Commandant's of 
each Armed Service at funerals. The result is clearly defined roles, 
responsibilities and relationships.
    My staff performs both an enabling function and an oversight role 
for the Superintendent's execution of daily operations. The intent is 
to enhance operations by removing administrative burdens from those 
responsible for execution, while having those administrative functions 
performed by subject matter experts and clearly segregating duties to 
ensure proper accountability and oversight.
    We have refocused the execution elements of the workforce by 
establishing leadership positions and accountability where none existed 
before. There are now team leader positions and job assignments to 
better manage and execute daily operations. The Superintendent's 
statement will focus on the improvements to daily operations.

                            CUSTOMER SERVICE

    Arlington National Cemetery is truly about the living. It provides 
a means for the living to honor our fallen veterans and their families. 
It provides a unique lens on the history of freedom. But, first and 
foremost, Arlington National Cemetery, on behalf of the American 
people, lays to rest those who have served our Nation with dignity and 
honor, treating their families with respect and compassion. Hence, 
customer service is a critical priority.
    When I arrived at Arlington National Cemetery the standard process 
for scheduling services or getting questions answered was to either 
call one of two toll numbers. If there was not someone immediately 
available to answer your call, you would be put on hold. That hold 
would last until one three things happened: the caller got tired of 
waiting, the wait hit the limit of just under an hour and the caller 
was transferred to a voice mailbox that was not set up, or a cemetery 
representative picked up the line. We cannot tell you how many calls 
went unanswered because of this system or how many people decided to go 
elsewhere. This undoubtedly led to frustration and also to frequent 
users finding ways to get priority.
    To be responsive to each and every caller and to establish a 
uniform standard for scheduling we streamlined public interaction and 
telephonic communications by transitioning initial call screening to 
the Information Technology Agency's Consolidated Customer Service 
Center (CCSC) on December 13, 2010. The customized interactive voice 
response tree allows us to receive and track incoming calls. This has 
also forced us to document detailed processes and work instructions 
that reside in a searchable knowledge management database. The call 
center leverages CCSC's existing case management application customized 
for Arlington National Cemetery to document and track all customer 
interactions. We have trained a dedicated team of agents to answer, 
triage, resolve when possible, and document all calls. To date the call 
center has handled more than 23,432 calls, averaging 235 calls per 
weekday with 47 of those to schedule an interment.
    Accessibility and preparedness for customers is also a priority. 
While the buildings were constructed prior to the American's with 
Disabilities Act, that is no excuse for a lack of accommodation. We 
have installed a handicapped ramp between Visitors Center and 
Administration Building for family members arriving by Metro. We have 
also constructed temporary ramps for placement curbside at interment 
services and include carpet for wheel chair access graveside. Automated 
External Defibrillators (AEDs) have been installed at locations 
throughout the cemetery and staff have been trained on their usage to 
ensure immediate response when necessary.
    While we are pleased with the progress to date to improve customer 
service, improvements will continue. We firmly believe in continuous 
process improvement and are working to establish feedback mechanisms to 
increase our understanding of customer concerns and needs.

                           RECORDS MANAGEMENT

    To address identified information assurance deficiencies in the 
Department of the Army Inspector General report and based on the CIO/G-
6 assessment, we commissioned the Army Data Center-Fairfield to 
transition the Interment Scheduling System to current hardware and 
software. The Army Data Center Fairfield completed this work and 
transitioned hosting of Arlington National Cemetery's business 
application to the U.S. Army Information Technology agency on November 
23, 2010. This critical transition has ensured survivability of this 
mission critical application. We are now leveraging the Pentagon data 
disaster recovery capability and improvements to the Interment 
Scheduling System to allow scheduling to be transparent to the Joint 
Staff, Office of the Secretary of the Army, and all service force 
providers. The Army Data Center-Fairfield's continued support of the 
Interment Scheduling System and enhancements will enable a transition 
of the interment services branch to a fully digital organization.
    The activities of Army Data Center-Fairfield provide a bridging 
solution to allow the Army and the Department of Veterans Affairs (VA) 
to collaborate on a new acquisition to replace the current version of 
VA's Burial Operation Support System (BOSS). The VA-BOSS system is at 
the end of its life cycle and VA is planning the process for gathering 
requirements for a new acquisition. Army acquisition professionals have 
been tasked to oversee the programmatic delivery of a new system, at 
which time milestone decision points will be determined according to 
Department of Defense and Army acquisition standard operating 
procedures.
    One of the biggest concerns upon arrival was the paper records and 
the lack of any backup of this information. We have been able to 
recover images from efforts in 2005 to scan the records. These images 
have been integrated by the Army Data Center-Fairfield with VA-BOSS 
records and Interment Scheduling System data from 2003 forward into a 
searchable database that provides both a digital tool and, more 
importantly, a backup for the vast majority of the authoritative 
records. This database will be expanded and form the basis of the 
accounting effort mandated by the Secretary of the Army and Public Law 
111-339.

                         FISCAL RESPONSIBILITY

    Arlington National Cemetery did not certify the FY 2010 year-end 
financial reports and schedules due to a lack of available 
accountability records. To remedy this issue for FY 2011, we 
accelerated the implementation of the General Fund Enterprise Business 
System (GFEBS) to 1 October 2010. GFEBS will provide the 
accountability, to include the ability to conduct required audits, to 
allow Arlington National Cemetery to certify year-end financial reports 
from now on.
    Instrumental to fiscal responsibility was instituting disciplined 
processes, with oversight and direction, to enhance procurement 
operations. Executive Director policies and appointments are now in 
place to ensure a qualified senior-level staff member conducts funds 
certification; only the Director of Resource Management and the Budget 
Officer are authorized to certify funds. Similarly, funds approval is 
limited to the Executive Director and Chief of Staff. We developed and 
implemented a Gift Policy to ensure proper joint ethics accountability 
and approval for all gifts and proffers made to Arlington National 
Cemetery. We initiated accountability of all Real Property and 
implemented a preventative maintenance and repair process to ensure 
care and maintenance.
    I lowered the threshold for legal review of contracts to $100,000. 
Recurring service contracts were extended to allow for a thorough 
review for requirements determination prior to re-competing all 
contracts. The current contract requirements have been consolidated in 
areas that allowed Arlington National Cemetery to gain efficiencies, 
streamline work efforts and limit the contractor footprint on the 
grounds of Arlington National Cemetery at any given time. The 
consolidated requirements went from 28 to 16. Each of the new service 
contracts has a Quality Assurance Surveillance Plan and a Performance 
Requirements Summary as part of the contractual requirement. These 
documents will assist our newly trained contracting officer 
representatives to hold contractors accountable for services.
    To ensure accountability for the past, I have asked the Army Audit 
Agency (AAA) to return at the end of this fiscal year to ensure that 
the policies, procedures, and practices that have been established are 
indeed working and sufficient.

                 SUSTAINING ARLINGTON NATIONAL CEMETERY

    Arlington National Cemetery includes 624 acres of rolling hills 
with 20 miles of roads and the necessary infrastructure to support 
interment services, ceremonies, and visitation. Planned expansions 
include the 31 acres known as the Millennium Project and 42 acres that 
will come with the Base Realignment of the Navy Annex.
    Under current estimates, Arlington National Cemetery expects to 
exhaust its availability for inurnments in niche spaces in Fiscal Year 
2016. To preclude this from happening, we have accelerated investment 
in developing and constructing Columbarium Court 9 during this fiscal 
year. This investment will add approximately 20,300 niches to the 
inventory and with the follow on efforts in the Millennium Project, 
should allow Arlington National Cemetery to continue to offer inurnment 
services out to Fiscal Year 2037. We expect Columbarium Court 9 to be 
operational by November 2012.
    Investment in the Millennium Project recommences in Fiscal Year 
2012. When all five phases have been completed, this project will 
provide space for casketed remains, niches, and space for in-ground 
cremated remains. Continuation of this project is critical to extend 
the viable life of Arlington National Cemetery and will permit us to 
offer multiple services to be performed simultaneously across the 
expanse of the cemetery.
    Arlington National Cemetery now has a dedicated engineering staff 
and has recently completed a comprehensive assessment of the current 
status of all facilities and infrastructure. This draft Ten-Year 
Capital Investment Plan for Arlington National Cemetery is to assist 
top-level management to manage, plan, budget, and acquire capital 
assets that will best serve the mission effectively. The draft is a 
living document that is updated regularly. It is flexible so the 
decision makers can change the project implementation schedules. The 
plan intends to highlight and address potential spikes (i.e., large, 
one-time increases in annual appropriations) that may have an impact on 
other necessary projects. It also establishes a process for managing 
the portfolio of capital assets to achieve performance goals with the 
lowest life-cycle costs and to minimize risks.
    We are committed to maintaining Arlington's grounds and 
infrastructure in accordance with the standards expected of a National 
Shrine while also maintaining the cemetery's viability as an active 
cemetery for those who continue to serve our Nation.

                               CONCLUSION

    I hope that the highlights of the actions taken and changes 
implemented demonstrate the progress that has been, and continues to 
be, made to restore the Nation's confidence in Arlington National 
Cemetery. I would like to thank the Subcommittee for taking a positive 
leadership role in the oversight of Arlington National Cemetery.
    Mr. Chairman, this concludes our testimony. We will be pleased to 
respond to questions from the Subcommittee.

                                 <F-dash>
 Prepared Statement of Patrick K. Hallinan, Superintendent, Arlington 
 National Cemetery, Department of the Army, U.S. Department of Defense

    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for the opportunity to speak to you about Arlington National 
Cemetery. I was appointed as the Superintendent of Arlington on October 
10, 2010, and served as the Acting Superintendent since June 10, 2010.
    I was the Director of the Office of Field Programs, National 
Cemetery Administration for the VA since Oct. 20, 2008, and was 
responsible for developing and implementing National Cemetery policy, 
procedures, and guidance related to national cemetery operations. I had 
oversight responsibilities for five Memorial Service Network offices, 
131 national cemeteries, 3.1 million gravesites and 19,000 acres..
    I began my career in Federal service, working as a temporary 
caretaker for the National Cemetery Administration when I was honorably 
discharged from the Marine Corps. I have spent my entire Federal career 
in cemetery operations and see being the Superintendent of Arlington 
National Cemetery as the highpoint of my 37-year career.
    First and foremost, Arlington National Cemetery is an active 
cemetery conducting approximately 27 funerals per day. We consider it 
part of our sacred trust to ensure that each funeral is executed with 
the utmost dignity and respect. Every veteran's, and eligible 
dependent's, funeral receives our full attention to detail. Daily 
operations are critical to maintaining one of the unique hallmarks of 
Arlington National Cemetery, multiple simultaneous private grave side 
interments with full honors. Neither the importance nor complexity of 
this hallmark can be overstated.
    To establish accountability while maintaining this hallmark, 
standards were developed throughout the operation where none existed. 
The leadership team is training the workforce to implement these 
standard operating procedures. We are holding supervisors and leaders 
responsible and accountable for meeting our established standards. All 
supervisors are responsible for quality control in the cemetery. My 
staff and I spend at least 60 percent of every day in the cemetery, 
regardless of weather conditions, observing daily operations and 
ensuring expected standards are being met.
    New standards for chain of custody have been implemented to 
maintain positive identification of casketed or cremated remains from 
the time they arrive at the cemetery until they are secured in their 
final resting place. For casketed remains a system of six checks are 
made by the cemetery representative to ensure positive identification: 
cemetery representative validated daily interment schedule with family; 
a non-biodegradable tag is placed on the casket containing the name of 
the deceased, date of death, date of interment, section and grave 
number and checked with the section and grave number painted on the 
concrete lid of the grave liner; section and grave number are painted 
on inside the grave liner; temporary grave marker contains name, dates, 
section and grave number; and headstone (if applicable).
    A ``dig slip'' is now the standard for excavation of a grave being 
opened for a second interment. This standard assists in preventing the 
unintentional removal of interred cremated remains during the 
excavation of a grave. The dig slip is issued to the equipment operator 
and must be verified by the equipment operator before opening the 
grave. Similarly, niche covers in the columbarium are not removed for 
the second interment until the cemetery representative is present. This 
standard prevents cremated remains from being left unattended in an 
open niche prior to a service. All cremated remains received at the 
cemetery are tagged with a non-biodegradable tag and maintained in a 
locked area until required for the funeral service. A concrete 
government grave liner made specifically for urns is now used for 
gravesites where cremated remains are interred. This procedure 
effectively eliminates the improper or unintentional disassociation of 
cremated remains from their assigned gravesite.
    Supervisors and work leaders are being trained regularly by the 
cemetery leadership on standards for the correct layout of burial 
sections according to burial maps, accurate assignment of gravesites, 
and correct procedures for closing graves. The Army has a memorandum of 
agreement with the Department of Veterans Affairs leveraging training 
at the National Cemetery System, Veterans Administration training site 
in St. Louis. Contracting officer representatives throughout the 
cemetery workforce are holding contractors working in the cemetery to 
the standards of the contracts. Contracts have quality assurance plans 
and contractors are being monitored and held accountable to fulfill all 
contractual obligations and for any damage sustained to government 
property.
    Standards are in place to ensure that all sections of the cemetery 
are tamped correctly to minimize graves and headstones from sinking. A 
sifter was procured to ensure fill soil for closing of graves is now 
sifted prior to use to improve effectiveness of the tamping process 
when closing a gravesite. Additionally, all first interment sections 
are raked level, clear of any excess rocks, to present a neat and cared 
for appearance. As soon as possible (seasonal restrictions apply) a 
stand of turf is created either by adding a layer of topsoil, seeding, 
and fertilizing or installing sod. We are now using hand operated gas 
tampers in second interment sections to close graves correctly. 
Attachments for tractors have been added to rake large first interment 
areas substantially improving the overall appearance of the cemetery. 
Government markers (headstones) are being installed and checked against 
the newly established standard in the cemetery. Government markers are 
installed with 24''-26'' of stone visible above the ground. Headstones 
are installed using the permanent monumentation in the sections and 
checked with a level to ensure that they are aligned vertically and 
horizontally.
    Daily operations have been enhanced through the establishment, 
training and enforcement of standards, by optimizing procedures, and by 
procuring the right equipment for each task. This ensures full 
accountability of all remains that are interred or inurned and higher 
quality of interment services and grounds keeping. The result is full 
confidence that individuals are laid to rest in the correct gravesite 
or niche and an significant increase in the appearance of the cemetery.
    The cemetery averages 47 new requests for burial each day. We 
average 27 interments per day. To address this issue, Arlington 
National Cemetery initiated Saturday interment operations on May 14, 
2011. These are placement only services, where no honors have been 
requested and allow some of the additional demand to be met. In 
addition, we are working to increase the daily number of services to 
average 30 interments.
    Arlington National Cemetery is hallowed ground, consecrated by the 
American Heroes buried here. As a veteran, and father of a Marine, I am 
truly honored to be the Superintendent of Arlington National Cemetery. 
I am here to move forward to correct the mistakes of the past and 
restore the faith of the American public in the operations at Arlington 
National Cemetery.
    Mr. Chairman, this concludes my testimony. I will gladly respond to 
any questions the Subcommittee may have.

                                 <F-dash>
 Prepared Statement of Christina M. Roof, National Acting Legislative 
                  Director, American Veterans (AMVETS)

    Chairman Runyan, Ranking Member McNerney and distinguished Members 
of the Subcommittee, on behalf of AMVETS, I would like to extend our 
gratitude for being given the opportunity to share with you our views 
and recommendations regarding Arlington National Cemetery and the new 
administration.
    AMVETS feels privileged in having been a leader, since 1944, in 
helping to preserve the freedoms secured by America's Armed Forces. 
Today our organization prides itself on the continuation of this 
tradition, as well as our undaunted dedication to ensuring that every 
past and present member of the Armed Forces receives all of their due 
entitlements. These individuals, who have devoted their entire lives to 
upholding our values and freedoms, deserve nothing less.
    As we are all aware, last year the United States Army's Office of 
the Inspector General (OIG) preformed a detailed investigation into the 
activities of Arlington National Cemetery (ANC). What OIG uncovered 
directly impacted AMVETS membership and the families of countless 
others who have laid a loved one to rest in Arlington National 
Cemetery. AMVETS found OIG's report to be not only upsetting, but also 
incredibly disgraceful. AMVETS could not believe the numerous wrong 
doings OIG outlined in their report, or that these sacred grounds could 
have ever been blatantly mismanaged in a way that showed no respect or 
care for the remains of this Nation's fallen heroes. While AMVETS is 
eager to read OIG's follow-up report to the investigation, we still 
believe that we must voice the concerns, recommendations and problems 
experienced by our membership last year, if only in an effort to give 
our members the comfort of knowing their experiences are understood. 
Moreover, AMVETS believes that it is important to preface our statement 
with the fact they we are not aware of all of the improvements already 
in place at ANC, as we too are awaiting the Army's new report. However, 
the concerns we share with you today are still just as important and 
personal as they were 1 year ago.
    AMVETS strongly believes that the issues at ANC are a direct result 
of a broken chain of command, out-dated technology, absence of updated 
internal policies and failure to codify numerous operational policies 
and procedures. AMVETS finds it unacceptable the ANC has been moved 
between multiple Army agencies over the past 30 years, and yet no one 
agency or individual ever expressed concern over the happenings at ANC. 
Furthermore, we believe that with the constant shifting of oversight at 
ANC, the Army failed to maintain regulatory ``proponency'' in ensuring 
ANC was being run in direct compliance with Army Regulation 25-30, 
issued in 2006. The Army's failure to enforce compliance with their 
regulations coupled with the failures of ANC's superintendent and 
senior leadership to adhere to the regulations and update internal 
Standard Operating Procedures (SOPs) has resulted in numerous grave 
mismarkings, improper handling of remains and immeasurable stress and 
grief, which the families of these fallen heroes must now endure.
    The command and leadership structure for ANC was last codified in 
AR 290-5 in 1980, as well as in Tile 32 Section 553 which was last 
updated in 1997. Furthermore, Department of the Army Pamphlet DA PAM 
10-87 entitled ``Administration, Operation and Maintenance of Army 
Cemeteries'' has not been updated since 1991 and lastly, GO 13 entitled 
``Army National Cemeteries'' was last updated in 2004. The first two 
documents clearly outline the delegation of responsibilities to all of 
the agencies involved with the care of ANC, however GO 13 seems to add 
confusion and opposing policies to those outlined in AR 290-5 and DA 
PAM 10-87. In fact according the OIG, ``GO 13, at best, dilutes the 
responsibility, accountability and authority of Military District of 
Washington as an organizational structure over ANC, and at worst, 
effectively strips the organizational level structure out of the 
equation, encumbering strategic and direct level structures with the 
tasks to lead and manage functional areas in which they are not 
resourced.''
    The overall operational inefficiencies seem to be a direct result 
of outdated and/or non-existent SOPs and internal published policy 
guidelines. According to OIG ANC staff reported that they had never 
even seen an SOP and the few that did exist were very outdated. It is 
in the opinion of AMVETS that ANC was only able to function below the 
radar for as long as they did because of the experience of the current 
staff and very low turnover rates. However, AMVETS finds it to be 
unacceptable and irresponsible to operate any cemetery without 
regularly updated SOPs and policies, regardless of the experience level 
of the cemetery's personnel. The OIG's findings further confirm AMVETS 
belief in utilizing updated SOPs and the necessity for regular 
oversight. AMVETS believes if ANC leadership and the Department of the 
Army had adhered to and followed policies, regularly updated their 
regulations and practiced even the most basic oversight, these grave 
injustices could have been avoided all together.
    AMVETS strongly believes that ANC should look to the practices and 
procedures of the Department of Veterans Affairs National Cemetery 
Administration (NCA). NCA has robust and regularly updated procedures, 
policies and codified laws called for. Furthermore, NCA has utilized an 
electronic tracking system for all of their interments since the 
1990's. NCA also continually demonstrates transparency in their daily 
operations and has always been forthcoming with any problems they may 
be experiencing. NCA has always looked to Congress at the start of any 
problem so that policies could be updated and codified in order to 
prevent the exact events that have occurred at ANC.
    AMVETS also believes that the leadership of ANC should look to NCA 
for methods of key decision-making. In the past ANC mid-level managers 
have made all of the key decisions regarding employees and daily 
operations without looking to higher level management, the employees 
themselves or even outside resources that could have been provided by 
the Department of the Army. Instead, ANC chose to make all of these 
decisions on their own, which in turn created an unhealthy 
organizational climate and led to the numerous mistakes regarding 
interment on ANC grounds. While AMVETS understands that there is new 
leadership at ANC, we strongly urge the new administration utilize the 
assistance NCA has offered numerous times over the past 15 years with 
the implementation and completion of ANC's automation process.
    When comparing the cost of what it took NCA to establish and 
implement their automated system to that of what ANC has already spent 
over the last decade trying to develop and implement their own 
automated system, AMVETS believes ANC accepting the outside assistance 
from NCA stands to be the most timely and fiscally responsible manner 
in which ANC can finally complete their automated system.
    As you know, AMVETS is one of this country's most inclusive 
Veterans Service Organizations. Our membership is comprised of 
veterans, active duty personnel, National Guard and Reserve and through 
AMVETS subsidiary organizations, their families. Numerous AMVETS 
members and their families have been personally effected by the 
mistakes that took place at ANC. AMVETS still continues to receive 
calls from our membership wanting to know if their loved ones remains 
are still being properly cared for, as well as calls from concerned 
members wanting to know how they can get in touch with ANC to check on 
the status of their loved ones interments. So, that being said, I would 
like to stray from my usual testimony style and share with you what I 
have witnessed and experienced on a personal level through my 
interactions with those directly affected by this ordeal.
    Although we have tirelessly searched, AMVETS cannot find the proper 
words to explain to this Committee what it feels like to try and 
comfort our members so distressed over what they have seen in the news 
regarding mismarked head stones and improperly cared for remains, or to 
even start to accurately express to you the feelings of uncertainty and 
fear these families have experienced. Personally, I have witnessed 
emotion ranging from pure anger to extreme sadness and even guilt by a 
few who wondered if they had made the wrong decision in having their 
loved one laid to rest at what they believed was supposed to be one of 
this country's most sacred and well kept cemeteries. While we can 
discuss the technical and legislative aspects of what happened at ANC 
repeatedly, we must never forget that behind all of our discussions on 
policies and codifying practices are real people. Moreover, these are 
the men and women who have sacrificed and even died for our country. 
While, I usually try and leave people's personal tragedies out of 
policy discussions, I truly believe that this is one of the times when 
we actually need to include it. When the only comfort I have to offer 
to my membership is an ANC hotline number and hopeful, yet unverified, 
reassurances that the Department of the Army and Congress will quickly 
right all of the ``wrongs'' that have happened, is simply not good 
enough.
    Again, AMVETS understands that new leadership was brought into ANC 
to address all of the problems and that there has possibly been great 
strides in rectifying all of the problems OIG reported last year, 
however the simple fact still remains that this happened and there must 
be immediate changes to and the codification of the policies and 
procedures utilized at ANC. AMVETS stands ready to assist this 
Committee and the leadership of ANC in any way needed, so that we can 
all rest assure that this will never happen again.
    Chairman Runyan and distinguished Members of the Subcommittee, this 
concludes my testimony and I stand ready to address any questions you 
may have for me.

                                 <F-dash>
Prepared Statement of Ami D. Neiberger-Miller, Director of Outreach and 
          Education, Tragedy Assistance Program for Survivors

                           EXECUTIVE SUMMARY

Introduction
    Because of our role in caring for thousands of families of 
America's fallen military since 1994, the Tragedy
    Assistance Program for Survivors (TAPS) is uniquely qualified to 
comment on this matter. Ami Neiberger-Miller is a surviving family 
member with multiple loved ones interred at Arlington National 
Cemetery. In my role as a TAPS staff member, I have worked with several 
families to communicate with Cemetery administrators under both the old 
and new leadership.

I. Evaluation of Progress to Date In Addressing Deficiencies in the 
        2010 Inspector General's Report
        <bullet>  Family reactions to the Army Inspector General's 
        report were mixed and fell across a wide spectrum.
        <bullet>  TAPS praises administrators for positive steps: an 
        upgraded phone system, addressing manpower shortages, and 
        instituting consistent policies and procedures among the 
        Cemetery workforce.
        <bullet>  In spite of this progress, much remains to satisfy 
        the 101 recommendations and 76 findings in the Inspector
        <bullet>  General's report. After steady progress, I would rate 
        the team at Arlington National Cemetery about 40 percent of the 
        way to the goal line.
        <bullet>  Regulatory deficiencies and the slow pace of work 
        updating the Code of Federal Regulations leave the new 
        leadership without a firm foundation upon which to build a 
        future for the Cemetery.
        <bullet>  Families grappling with questions about verifying the 
        burial locations of their loved ones at the Cemetery have 
        struggled to understand the information given. Securing 
        assurance for some families has been problematic, especially 
        given the nature of the antiquated paper recordkeeping system 
        and the potential emotional wounds opened by invasive measures.
        <bullet>  Cemetery leadership have struggled when conducting 
        dis-interments and re-interments, and also struggled at times 
        with connecting families to the branch of service.

II. Opinion on the Future of Arlington National Cemetery
        <bullet>  Some within Congress and others are calling to 
        transfer the Cemetery to the Department of Veterans Affairs.
        <bullet>  There is not a consistent opinion among surviving 
        families on this matter. I know a few families who support the 
        Cemetery remaining under the Army's management. What matters to 
        families is the care and support they and their loved ones 
        receive from the management of the Cemetery.
        <bullet>  VA cemeteries rate highly with surviving families. 
        TAPS would not oppose a transfer to the VA.
        <bullet>  TAPS would work cooperatively with any agency 
        managing Arlington National Cemetery.

III. Recommendations for Improvements in Cemetery Operations
        <bullet>  Continue to pursue all legal means to render a full 
        accounting of the burial locations at Arlington National 
        Cemetery.
        <bullet>  Write and promulgate new administrative rules for the 
        Code of Federal Regulations for the Cemetery.
        <bullet>  Involve a focus group of bereavement professionals 
        accredited by the Association of Death Education and 
        Counseling, TAPS, the National Funeral Directors Association 
        and surviving families in discussing the procedures being taken 
        to correct burial discrepancies at the Cemetery.
        <bullet>  Involve trained bereavement counselors and social 
        workers alongside Cemetery staff in talking with surviving 
        families who are grappling with issues related to the burial 
        locations of their loved ones.
        <bullet>  Set up an advisory group comprised of Veterans 
        Service Organizations to provide input to the Cemetery 
        administrative staff and offer feedback, similar to the group 
        already in place that the VA consults.
        <bullet>  Communicate more fully with surviving families and 
        the American public about the steps being taken to correct 
        burial discrepancies at the Cemetery.
        <bullet>  Hold town hall meetings in cooperation with TAPS for 
        surviving families.
        <bullet>  Improve cooperative relationships among the military 
        service branches that render honors at the Cemetery.
        <bullet>  Update the floral policy for the Cemetery to be 
        consistent with current grieving practices and include 
        mementoes in the policy, as well as collection procedures.
                               __________
    Mr. Chairman and Members of the Subcommittee:
    I am pleased to have the opportunity to submit this testimony on 
behalf of the Tragedy Assistance Program for Survivors (TAPS). TAPS is 
the national organization providing compassionate care for the families 
of America's fallen military heroes. TAPS provides peer-based emotional 
support, grief and trauma resources, seminars, case work assistance, 
and a 24/7 resource and information helpline for all who have been 
affected by a death in the Armed Forces. Services are provided to 
families at no cost to them. We do all of this with no financial 
support from the government because TAPS is funded entirely by the 
generosity of the American people.
    TAPS was founded in 1994 by a group of surviving families following 
the deaths of their loved ones in a military plane crash. Since its 
founding, TAPS has offered comfort and care to more than 30,000 people. 
The journey through grief following a military death can be isolating 
and the long-term impact of grief is often not understood in our 
society today. On average, it takes a person experiencing a traumatic 
loss 5 to 7 years to reach his or her ``new normal.''
    TAPS has extensive contact with the surviving families of America's 
fallen military servicemembers, making TAPS uniquely qualified to 
comment on issues affecting the survivors left behind. Since 1994, our 
24/7 resource and information helpline has received approximately 
184,260 calls from survivors. In 2010, TAPS received an average of 68 
calls per day from military survivors and placed 264 calls per day to 
survivors. TAPS intaked 2,864 newly bereaved military survivors in the 
last year and received 10,649 calls to our 24/7 resource and 
information helpline. Last year, TAPS placed approximately 63,452 calls 
to survivors to let them know they were not alone, follow up on a case 
inquiry, or discuss needed services and support. One hundred percent of 
our 42 professional staff members are survivors of a fallen military 
hero or military family members. Ninety-eight percent of our total 
workforce are volunteers, including active military servicemembers, who 
have donated 48,000 hours of their time in the last year to be trained 
in how to companion a child who is grieving and volunteer their time to 
support the children left behind by our fallen.
    My name is Ami Neiberger-Miller, and I am the director of outreach 
and education at TAPS. I am a surviving family member of our fallen 
military and have deep personal connections to Arlington National 
Cemetery. Tragedy struck my family in 2007 when my 22-year old brother, 
U.S. Army Specialist Christopher Neiberger, was killed in action in 
Baghdad, Iraq. My brother is buried in section 60 at Arlington National 
Cemetery. My father-in-law, U.S. Marine Corps Captain Norman Vann 
Miller, who died in 2003 of natural causes, is buried in section 66 at 
Arlington National Cemetery, which is one of the sections identified in 
the Inspector General's report as having significant problems with 
burial discrepancies. Additional relatives of my family are interred in 
other locations in the Cemetery. The beginning of my grief journey 
after my brother's death is part of the HBO film, ``Section 60: 
Arlington National Cemetery,'' which describes the community of 
families that grieve together at the Cemetery. I began working with 
TAPS in October 2007. In my role as a staff member with TAPS, I have 
supported many surviving families of our fallen military and veterans 
in communicating with the administration of Arlington National Cemetery 
from 2007 to date.
    I have been asked by the Subcommittee to ``provide written comments 
on TAPS' views on the efforts by the new administration at Arlington 
National Cemetery to correct the egregious deficiencies documented in 
last year's Inspector General's report.'' I was asked ``to include your 
evaluation of their progress to date in addressing these issues, with 
particular attention given to the degree of accountability and 
transparency exhibited, and your expectations regarding their timeline 
and plan for full correction of all noted deficiencies. I was also 
asked to provide comment to the Subcommittee ``regarding the future of 
Arlington National Cemetery and any recommendations for improvements in 
the Cemetery's operations.''
    In response to the Committee's request, my testimony will be 
segmented into the following three sections: (I) evaluation of progress 
to date in addressing the egregious and massive systemic deficiencies 
documented in the 2010 Inspector General's report, (II) opinion on the 
future of Arlington National Cemetery, and (III) recommendations for 
improvements in the Cemetery's operations.

I. Evaluation of progress to date in addressing the deficiencies 
        documented in the 2010 Inspector General's report
    On June 10, 2010, the Army Inspector General published a report 
into egregious deficiencies in management and operations at Arlington 
National Cemetery. The contents of the report were difficult for many 
families of our fallen military and deceased veterans to hear about. We 
began receiving calls at TAPS from concerned families even before the 
news conference announcing the report had ended.
    TAPS issued a statement the same day in response saying, ``TAPS 
believes that Army Secretary John McHugh and the military's leadership 
are working actively to ensure that Arlington National Cemetery is 
managed in a manner that befits the service and sacrifice of the more 
than 330,000 servicemembers and their family members who are interred 
there.'' The statement also noted that the Army ``apologized to the 
community of surviving families, and is taking immediate action to 
correct this situation and to assure families.''
    For families with loved ones interred at Arlington National 
Cemetery, in my experience, reactions to the Inspector General's report 
fell across a broad spectrum:

    <bullet>  Some families were horrified, angry, and deeply concerned 
about the mismanagement of the Cemetery and the burial locations of 
their loved ones.
    <bullet>  Some families felt worried and were afraid that they had 
spent months, and even years, visiting a gravesite that their loved one 
might not be in.
    <bullet>  Many were confused and unsure what they should ask the 
Cemetery to confirm their loved ones' burial locations.
    <bullet>  Some families had difficulty interpreting and 
understanding what the Cemetery told them, even after they called 
seeking confirmation of a loved one's burial location.
    <bullet>  Some families were so deeply grieving that to even doubt, 
for an instant, a loved one's burial location, was an emotional leap 
they could not make. These families either turned off the television or 
put down the newspaper every time a story came on about the problems at 
Arlington National Cemetery, or clung to hope that their loved one's 
gravesite was not affected.
    <bullet>  Some families were deeply private about their concerns 
and chose to discuss them internally and reach consensus before making 
a call to the Cemetery.
    <bullet>  Some families were starkly pragmatic, noting that 
regardless of burial location, their loved ones were gone, and nothing 
could bring them back.

    The situation posed by burial discrepancies and mismanagement at 
Arlington National Cemetery is unprecedented. No family should ever 
have to wonder if their loved one is interred in the correct and marked 
location. There is no road map to help these families. In June 2010, 
there was also no road map for the Army and the new leadership team at 
the Cemetery in how to respond to family concerns.
    Working with bereaved and concerned families requires the utmost 
sensitivity. Training in bereavement and support from mortuary affairs 
professionals, Veterans Service Organizations, TAPS military 
bereavement professionals, and others could have saved the families and 
the Army much heartache and made this process less painful for all 
involved.
    In spite of these challenges, I believe the Army has made positive 
strides in addressing these problems by taking the following steps:

    <bullet>  Continuing the tradition of executing with great 
professionalism and care an average of 27-33 military funerals per day. 
Eight of these funerals involve full military honors with a caisson. As 
many as 5 funerals occur at the same time. In addition to executing the 
complicated logistics required for simultaneous and constant military 
burials, the staff at Arlington National Cemetery also support an 
average of 8 wreath-laying ceremonies per day at the Tomb of the 
Unknowns, host dignitaries and heads of state, and host 4 million 
visitors annually who learn about our Nation's history and legacy of 
military service.
    <bullet>  Instituting consistent policies and procedures for 
Cemetery operations staff to ensure that future burial or interment 
mistakes are not made.
    <bullet>  Instituting a healthier workplace culture that encourages 
employees to come forward if they make mistakes and correct them 
quickly, evidenced by prior Congressional testimony submitted by 
Superintendent Hallinan.
    <bullet>  Sending staff members to training in cemetery operations 
management.
    <bullet>  Upgrading the phone system at the Cemetery so the public 
and surviving families can communicate more effectively with the staff.
    <bullet>  Hiring a new superintendent and deputy superintendent 
with military cemetery management experience.
    <bullet>  Hiring a director for the Army Cemeteries Program who 
reports directly to the Secretary of the Army.
    <bullet>  Taking steps to hire additional staff to address the 
documented and significant manpower shortage at the Cemetery.

    However, in spite of this laudable progress, much remains to be 
done to satisfy the 76 findings and 101 recommendations made in the 
Inspector General's report, released almost a year ago. The management 
problems revealed at Arlington National Cemetery were massive, 
systemic, and sweeping.
    After a year of steady progress, I would rate the team at Arlington 
National Cemetery about 40 percent of the way to the goal line. That 
may not be entirely satisfying to Congress or to the public, but when 
you consider the serious and systemic deficiencies identified in the 
Inspector General's report, it's not surprising. Assuming their 
progress remains at this steady pace, I would expect that most of the 
deficiencies will be corrected within the next 2 years.
    I personally believe that satisfying the recommendations of the 
report will require a team approach, because it is a community that is 
impacted by the problems at Arlington National Cemetery. This team 
should involve leadership at the Department of Defense, Army officials 
and staff, mortuary professionals, the National Funeral Directors 
Association, the Association of Death Education and Counseling, 
military bereavement professionals from TAPS, surviving families of 
veterans and our fallen military, the American public, Congress, and 
many others. Now, I'd like to discuss a few areas where improvement is 
needed and may require a team approach.
    There is a significant need to address regulatory deficiencies 
impacting Arlington National Cemetery. The Inspector General found that 
all governing documents for the Cemetery were outdated, noting that the 
``Code of Federal Regulations, Army regulations, and Standard Operating 
Procedures are outdated and unsynchronized.''
    Many of the serious policy and regulatory issues identified in the 
Inspector General's report remain un-acted upon. I've heard that while 
some headway has been made in this regard internally, that these new 
regulations are being held up by legal concerns.
    Many of these items require not just action by the Army and the new 
leadership team in place at Arlington National Cemetery, but steps will 
also need to be taken by Department of Defense leaders to update and 
address Federal and army regulations, in accordance with the 
Administrative Procedure Act.
    While the introduction of new standard operating policies and 
procedures at Arlington National Cemetery itself have significantly 
improved day-to-day operations, new Federal regulations and Army 
regulations must be proposed and approved to address the tangled web of 
conflicting policies and regulations identified by the Army Inspector 
General and ensure a firm foundation upon which to build the next 
chapter in Arlington National Cemetery's history.
    Arlington National Cemetery has had difficulty at times 
communicating with families of veterans and servicemembers interred at 
Arlington National Cemetery who called seeking confirmation of a loved 
one's burial location. Immediately following the release of the 
Inspector General's report in June 2010, concerned survivors of 
veterans and our fallen military began calling Arlington National 
Cemetery seeking confirmation of their deceased loved ones' locations, 
with particular concern being voiced from families of those interred in 
sections 59, 65 and 66 where 211 mismarked or misidentified gravesites 
had been identified by the Inspector General. The problems were so 
massive and systemic, that families with loved ones interred in other 
sections of the Cemetery not mentioned in the report were also 
concerned.
    Typically, families calling the Cemetery with inquiries were given 
information found in the Cemetery's antiquated and non-digitized 3x5 
card recordkeeping system. The families sometimes struggled to 
understand how to interpret what they were being told. To many, it 
seemed impossible to confirm burial locations from just these records, 
in an atmosphere where families did not always trust what they were 
being told.
    Even if graves were photographed, the family located additional 
burial paperwork of their own from the time of the funeral, and 
additional information was given to the family, some families were left 
wondering how to interpret this data. Families sometimes did not have 
the emotional support needed to grapple with the serious issues posed 
by more invasive measures. Families wondered how they could be assured 
that their loved ones were in the correct locations, when the Army had 
let them down in the past? The need to rebuild trust between the Army 
staff and the families calling, was significant.
    One person making that call to Arlington National Cemetery was Air 
Force Colonel William Koch Jr., a retired veteran who called to verify 
his wife's grave location. He was initially assured that all was in 
order and not to be concerned. But Colonel Koch was called a few months 
later by Cemetery officials who reported that his wife had, in fact, 
not been interred under the marker he had faithfully visited. Colonel 
Koch's situation and anguish were documented by reporter Christian 
Davenport in a story in the Washington Post. TAPS was not involved in 
Colonel Koch's initial request for information from the Cemetery, but 
his situation illustrates the complex challenges the new leadership 
team are facing in assuring families, given the records they inherited.
    In handling these inquiries, the staff at Arlington National 
Cemetery and the survivors they were attempting to respond to would 
have greatly benefited from the input of a focus group of bereavement 
professionals accredited by the Association of Death Education and 
Counseling, mortuary affairs specialists, the National Funeral 
Directors Association, military bereavement professionals from TAPS, 
and surviving families.
    Had Arlington National Cemetery's situation been treated more like 
a mass casualty event, such as a plane crash, by the military, things 
might have fared better for surviving families. The military has 
considerable expertise in briefing families of those who have died who 
visit plane crash locations and preparing them for what to expect and 
see. This expertise, process and knowledge could have genuinely helped 
the Cemetery's new leadership and its current staff in addressing many 
of the concerns voiced by relatives of those interred at Arlington 
National Cemetery.
    Families needed clear communication about how to interpret what 
they were being told by the Cemetery staff as they sought to understand 
and confirm the burial locations of their loved ones. Had there been a 
handout on the Cemetery's Web site explaining to the families how to 
interpret the information they were receiving, and support in helping 
them think through these complex emotional issues, things might have 
gone smoother.
    Each family must decide on its own, how to approach the unique and 
unprecedented situation posed by the burial discrepancies at Arlington 
National Cemetery. It should be recognized that these conversations 
families are having with staff at Arlington National Cemetery staff are 
influenced by other factors, including their own emotions, personal 
feelings about the death, communication within the family, time since 
the death, funeral experiences of the family, paperwork from the time 
of the death held by the family, and personal cultural, religious and 
burial customs.
    It is not surprising at all to us at TAPS, who work with bereaved 
families every day, that at times, communication between the Arlington 
National Cemetery staff and the families was challenging. Here was a 
situation guaranteed to stir emotions and grief, for which there was no 
road map. What is so surprising about the Cemetery's interaction with 
families on this issue to me, is that more people have not come forward 
who are upset--given the emotional nature of the conversations this 
situation required.
    In the immediate days after the Inspector General's report was 
released, there was panic among some families. One family called TAPS 
with great concern, worried that their loved one was missing 
completely, because his gravesite at Arlington National Cemetery was 
not recorded in the VA Grave Locator database online.
    The family told TAPS: ``I hope that you can help me. I searched the 
national registry (gravelocator.cem.va.gov) and discovered there is no 
record of my father. He is buried in Section 59. When my sister called 
ANC to find out about this, she was told that it was highly unlikely 
that our father was involved in the mix up. This is not reassuring 
considering the national registry does not find any record of him. No 
information was taken in order to pursue this further. Please help and 
advise us what steps to take next.''
    After some calls and communication with Cemetery staff on behalf of 
the family, I found out that not all gravesites at Arlington National 
Cemetery are listed in the VA's grave locator system, even though this 
database includes a section for gravesites at Arlington National 
Cemetery. This information helped assure the family that their loved 
one had not been completely lost.
    But the family's interaction with Cemetery staff was troubling, as 
they seemed unable to be assured and said no information from them had 
been recorded, nor had they received additional information from the 
Cemetery. It took an intervention by TAPS on their behalf to provide 
essentially basic information to reassure this worried family.
    The confusion among families was so significant that TAPS staff 
were even asked if the discrepancies at Arlington National Cemetery 
might be replicable to veteran's cemeteries in other States that are 
administered by the Department of Veterans Affairs' National Cemetery 
Administration (NCA). We replied that the report applied to only 
Arlington National Cemetery.
    As recently as 2 months ago, TAPS was contacted by a veteran having 
trouble interpreting the information Arlington National Cemetery staff 
gave him when he called trying to verify his wife's burial location. He 
called TAPS for help and sought confirmation from the Cemetery that he 
would truly be buried with his deceased wife after his own death at 
some time in the future. After calling the Cemetery, he was left 
feeling as though his quest for assurance could not be entirely 
fulfilled.
    The veteran told me, ``Although my fears are not completely 
dissolved by Arlington's assurances, I know that certainty can only be 
achieved by disinterment and DNA testing, and I am not prepared for 
such an invasive solution. I will just have to live with the 
uncertainty that Arlington mismanagement has created and hope that the 
new managers will see that my late wife and I are interred together.'' 
That's a truly sad statement.
    But given the significant emotional barriers posed by disinterment 
for grieving families, it's also not surprising. While some in Congress 
and the media have repeatedly questioned why Arlington National 
Cemetery has not deployed backhoes and taken more invasive measures to 
address burial discrepancies, this case illustrates exactly why 
families are a deeply-enmeshed, necessary, and complicated piece of the 
puzzle in resolving burial discrepancies at Arlington National 
Cemetery.
    In some cases, families simply cannot authorize more invasive 
measures emotionally or personally. Yet the condition of the records 
the new leadership inherited, leave families few other non-invasive 
options for confirming burial location, other than trust and hope. 
Under Federal regulations (Sec. 553.19), it's the right of families to 
decide what happens to their loved ones, as they are currently 
interred, at Arlington National Cemetery. It is a complicated legal and 
emotional matter that cannot be easily or quickly resolved.
    Placing trained bereavement counselors, compassionate mortuary 
professionals or skilled social workers alongside cemetery staff as 
they talk with concerned families grappling with concerns about the 
burial locations of their loved ones would give concerned survivors 
additional support when they call the Cemetery. Involving therapists 
and licensed counselors with training in bereavement to talk with 
surviving families would have made these conversations easier for the 
families, and likely also easier for the Army staff involved.
    At times over the last year, I felt it was challenging to convince 
the Army that being more forward-thinking in its communications 
approach would benefit both the families and the Army.
    As a public relations professional with nearly two decades of 
experience in communications, I felt it was critical for the Army to 
talk about the situation at Arlington National Cemetery and the steps 
being taken by the Army to address it. The implementation of an 
effective communications plan with clear objectives for communicating 
with the public and surviving families of those interred at Arlington 
National Cemetery as soon as the Inspector General's report was 
released would have tremendously improved the situation.
    Because we work on a daily basis with surviving families of our 
fallen military, as a representative of TAPS, I undertook a pro-active 
effort to reach out to the new leadership at Arlington National 
Cemetery as soon as it was in place. This was consistent with our 
previous practice, as TAPS has assisted families with gravesite issues, 
headstone corrections, or concerns about policies at the Cemetery over 
the years. Due to the nature of our work, TAPS is also part of several 
events at the Cemetery each year held by and for surviving families.
    A meeting was held between TAPS staff and Kathryn Condon, the newly 
appointed executive director of the Army Cemeteries Program. During 
this meeting, we proposed hosting a town hall meeting where Ms. Condon 
and other Cemetery staff could meet with surviving families in an 
informal and private environment for open discussion and engagement.
    The town hall event was held in late October 2010 and facilitated 
by TAPS. It was attended by a number of military survivors, some of 
whom had traveled from great distances to participate. Families were 
also able to send in questions via e-mail that were asked at the 
meeting. Ms. Condon and Mr. Hallinan, the newly-named superintendent, 
attended the town hall session and spoke directly with surviving 
families. It was a very productive discussion and TAPS would like to 
see the Cemetery staff take more proactive measures to communicate with 
surviving families directly.

Concerns with dis-interments and re-interments at Arlington National 
        Cemetery.
    In our experience, the times the new leadership and cemetery staff 
have struggled, have not been with day-to-day operations or the daily 
funerals at the Cemetery. Rather, the times the new leadership have 
struggled to relate to or communicate with families, has been when 
dealing with families stressed about the interment locations of their 
loved ones due to the previous leadership's mis-management, or families 
who were coming to Arlington National Cemetery for procedures out of 
the normal realm of daily operations for the cemetery staff, such as 
dis-interments and re-interments.
    TAPS staff provided emotional support to two families who pursued 
dis-interments of their loved ones at Arlington National Cemetery due 
to suspected burial discrepancies. I was involved personally in both 
cases. In both situations, the decisions involved for the surviving 
family members were difficult and emotional.
    Since its founding, TAPS has supported military families making 
decisions about the dis-interment and re-interment of remains, so we 
have experience in this area. In some of these past cases, the families 
were deciding whether to lay to rest additional remains that were 
recovered after a funeral, or were contemplating moving a loved one's 
remains to a different cemetery.
    Many families have told us that disturbing a gravesite, moving 
remains, or questioning the location of remains, has complicated their 
grief journeys. Decisions about disturbing a gravesite are deeply 
personal, involve a family's culture and burial customs, and are 
fraught with emotion and difficulty.
    The surviving families of our fallen military and veterans deserve 
our support in working through these issues. While the staff and 
leadership currently at Arlington National Cemetery are aware of the 
significant emotional and personal issues involved in dis-interments, 
the news media and political leadership do not seem to fully understand 
or note these concerns, and some have speculated as to why there have 
been so few disinterments to-date. The simple answer is this that dis-
interments are fraught with difficulty and emotion. Not every family is 
able or willing to take such an invasive step to confirm the location 
of a deceased loved one. Legally, disinterments remain the choice of 
the surviving family and the primary next of kin of the deceased 
servicemember.
    In the first dis-interment case that TAPS staff was involved with, 
the family's fear that their loved one was not located under the marked 
headstone was correct. Additional gravesites were disturbed to locate 
their loved one's remains. Other burial discrepancies were found and 
other families were deeply hurt and upset, including retired Air Force 
Colonel Koch, whom I referenced earlier.
    In the second case, TAPS staff were present at a dis-interment to 
support the Warner family. The family was relieved to find that their 
loved one, a Marine who died in combat in Iraq at age 19, was buried in 
the marked location. While our staff questioned at the time the conduct 
of the Cemetery's staff in how the dis-interment for the Warner family 
was handled, it is our hope that the Cemetery leadership learned from 
these experiences and have modified their protocols and procedures for 
the future.
    In a third situation, TAPS staff arrived at Arlington National 
Cemetery to support a family re-interring their son who had been killed 
in action in Iraq while serving with the Marine Corps. The family had 
discovered years after they buried him in another State, that he had 
desired to be placed at Arlington National Cemetery. When the family 
arrived at the designated ceremony time at Arlington National Cemetery, 
the gravesite was not dug and the service delayed for 45 minutes while 
the Cemetery staff got things in order. I was not personally present at 
this situation, but did hear about it from TAPS staff who were there. I 
was told that the Marine Corps funeral director, who was on-site at the 
Cemetery, had to take charge of this troubling situation and insist a 
grave be dug. It should be noted that another re-interment that TAPS 
staff attended to support another family in a similar situation, went 
smoothly.
    In two of these situations, TAPS staff notified the Marine Corps 
about the dis-interment and re-interment events scheduled to happen at 
Arlington National Cemetery, prior to their occurrence. In both cases, 
TAPS was surprised to learn that the Marine Corps funeral director was 
not being kept apprised by Cemetery staff of these impending events and 
had not been notified of these events for fallen Marines. We found this 
to be concerning, as we know families very much appreciate the support 
of a loved one's service branch when going through something as 
difficult as a dis-interment or re-interment.

II. Opinion on the future of Arlington National Cemetery
    Arlington National Cemetery is a treasured shrine to our fallen 
military servicemembers and veterans and honors all who take the oath 
to protect and defend the Constitution of the United States. Arlington 
National Cemetery carries deep historical significance and meaning to 
the surviving families of those interred there and the American people 
as a Nation.
    The valor that rests at Arlington National Cemetery and at the 
gravesites of thousands of military servicemembers and veterans across 
our country, is what makes their burial grounds a place of respect and 
honor for all Americans.
    It should be noted that the recent tribulations about Arlington 
National Cemetery's management, are only a few years within a long and 
proud history. I believe it will take the response of a community, to 
rectify the problems identified at Arlington National Cemetery, and it 
may take as long as 3 years, to truly address all of the very serious 
issues identified in the Inspector General's report.
    As an independent nonprofit Veterans Service Organization that 
supports the families of our fallen military in the immediate days and 
years following the deaths of their loved ones, TAPS knows how 
important it is to families that fallen servicemembers be laid to rest 
with honor and dignity.
    We recognize that many within Congress and other areas are calling 
for a transfer of Arlington National Cemetery to the VA. Surviving 
families placing their loved ones at VA cemeteries have a universally 
high satisfaction rate in our experience. Their positive experiences 
are borne out by the VA National Cemetery Administration's high 
positive rankings with the American Customer Satisfaction Index.\1\ 
TAPS is grateful that Arlington National Cemetery employees are 
benefiting from training provided by the VA and that a new 
superintendent and a new deputy superintendent for Arlington National 
Cemetery were recruited from within the VA system.
---------------------------------------------------------------------------
    \1\ VA's National Cemeteries Lead Nation in Satisfaction Survey, VA 
News Release, January 25, 2011, Retrieved from http://www.va.gov/opa/
pressrel/pressrelease.cfm?id=2036 adequate emotional and psychological 
support for surviving families.
---------------------------------------------------------------------------
    TAPS would not oppose the transfer of Arlington National Cemetery 
to the VA, because of the high ratings surviving families have 
consistently given the VA's management of its cemeteries. At the same 
time, TAPS is also happy to continue partnering with the Army 
leadership and the leadership team in place at Arlington National 
Cemetery today to facilitate support of families and provide valuable 
insight from bereavement professionals. TAPS would seek to work 
cooperatively with any agency managing Arlington National Cemetery.
    It should be noted that there is not a consistent opinion among 
surviving families on the issue of whether Arlington National Cemetery 
should be transferred to the Department of Veterans Affairs. I know of 
a few families who support the Army continuing to administer Arlington 
National Cemetery. One family member attending the town hall meeting 
facilitated by TAPS for families to meet the new leadership at the 
Cemetery, felt very strongly that the Army should retain control of the 
Cemetery.
    Frankly, most surviving families are more concerned about the 
quality of care provided for their loved ones and their families, 
rather than which agency is listed as managing a Cemetery.

III. Recommendations for improvements in the Cemetery's operations.
    I offer the following recommendations for improvements in the 
Cemetery's operations:

      I.  Continue to pursue all legal means allowable to render a full 
accounting of the burial locations at Arlington National Cemetery. The 
current administrative leadership staff have outlined a plan to examine 
burial discrepancies at the cemetery on a sliding scale of concern that 
escalates action steps and only pursues invasive measures with the 
involvement and consent of the family of the deceased. While some have 
suggested that more invasive measures, such as dis-interment and DNA 
testing of remains, should be undertaken more frequently, it should be 
recognized that there are significant legal and personal issues with 
such actions. Any invasive efforts must be approved by the primary 
next-of-kin of the deceased and all living immediate family members, 
per Federal regulation (Sec. 553.19).

     II.  Write and promulgate new administrative rules for the Code of 
Federal Regulations that rectify the problems with Arlington National 
Cemetery's policy and management oversight. Appoint a committee within 
the Army to draft these rules and submit them to the Secretary of the 
Army and the Department of Defense for commentary. Allow a public 
comment period of at least 60 days and in compliance with the 
Administrative Procedure Act.

     III.  Involve a focus group of bereavement professionals 
accredited by the Association of Death Education and Counseling, TAPS 
professionals in military bereavement, the National Funeral Directors 
Association, and surviving families in discussing the procedures being 
taken to correct burial discrepancies at Arlington National Cemetery. 
Involve this group in reviewing protocols for talking with survivors 
about burial discrepancies and in communicating about what the Cemetery 
is doing to resolve them and improve management. Involve this group in 
discussions about the cemetery's protocols for dis-interments to ensure 
that every effort is made to provide

     IV.  Involve trained bereavement counselors and social workers 
alongside Cemetery staff in talking with surviving families who are 
grappling with issues related to the burial locations of their loved 
ones. Consult with TAPS and other organizations, such as the 
Association of Death Education and Counseling (ADEC) or the VA's Vet 
Centers (which provide bereavement counseling to surviving families) to 
provide therapists and licensed counselors with training in bereavement 
to talk with surviving families who are concerned about the burial 
location of their loved one.

      V.  Set up an advisory group comprised of Veterans Service 
Organizations to provide input to the Cemetery administrative staff and 
offer feedback. A similar group is in place within the National 
Cemetery Administration managed by the VA. This group provides input 
and valuable dialogue between Cemetery administrators and these 
organizations that touch veterans, survivors and their families.

     VI.  Communicate more fully with surviving families and the public 
about the steps being taken to correct burial discrepancies at 
Arlington National Cemetery. Create a comprehensive communications plan 
for Arlington National Cemetery. Create a page on the Arlington 
National Cemetery Web site that explains the steps being taken by the 
administrative leadership to correct these problems. Publish a fact 
sheet for surviving families on what is being done to rectify burial 
discrepancies and management changes. Explain in detail how the burial 
and interment records are being researched and compared, and offer 
guidance to help families working through these issues. Include links 
to videos, news stories and other information.

     VII.  Hold town hall meetings in cooperation with TAPS for 
surviving families of those interred at Arlington National Cemetery. 
Involve Cemetery leadership and staff in sharing information on a 
regular basis with the community of survivors and veterans in these 
private sessions where families can ask frank questions and learn about 
the changes at the Cemetery. TAPS is able to assist with facilitation 
if needed.

    VIII.  Improve the cooperation and relationships among the military 
service branches that operate and render honors at Arlington National 
Cemetery. Strive to emulate the atmosphere found at Dover Air Force 
Base, where all of the service branches participate in dignified 
transfers for our fallen military and work cooperatively.

     IX.  As recommended in the Inspector General's report, update the 
floral policy for Arlington National Cemetery. This update should make 
the policy consistent with current grieving practices, and take into 
consideration the safety and security of those visiting and working at 
the cemetery. Include the word ``mementos'' in the floral policy and 
describe clearly how often gravesites will be cleaned. The policy 
should also specify which items will be retained for historical archive 
purposes by the Army's Center for Military History. Locate appropriate 
funding for the Army Center for Military History's pilot program to 
collect significant mementoes left at gravesites in Arlington National 
Cemetery. They are an important part of our Nation's history and 
legacy.

    It will take a response by a community--comprised of surviving 
families, Veterans Service Organizations, bereavement professionals at 
TAPS, Army staff and leadership, the National Funeral Directors 
Association, mortuary affairs specialists, the Association of Death 
Education and Counseling, and others to deal with the significant 
burial discrepancies and problems identified at Arlington National 
Cemetery by the Army Inspector General.
    We cannot go back and undo decades of poor record-keeping and mis-
management. We must find a way forward that supports surviving families 
left behind by our military and veterans.
    Personally, I would like to see Congress and others, separate their 
anger over what happened with the previous leadership of Arlington 
National Cemetery, from the efforts being taken by the new leadership 
to address the Inspector General's report. I think the new leadership 
needs to be held accountable for its actions and how it treats and 
communicates with surviving families, but I fear that anger over the 
non-punishment of the previous officials, has adulterated public 
dialogue and discussion about Arlington National Cemetery, and become a 
stumbling block to helping all of us move forward.
    Together, we can find the way forward as a community and provide 
better and more compassionate and comprehensive support to surviving 
families as they face the serious issues raised by burial 
discrepancies.
    The stakeholders involved in the rectifying the burial mistakes at 
Arlington National Cemetery include not just the Army, but also 
veteran's service organizations like TAPS, mortuary affairs 
professionals from within the military and the professional funeral 
services community, bereavement professionals, funeral representatives 
from the service branches, and the surviving families of our fallen 
military and deceased veterans.
    By working together, we can build a new chapter in Arlington 
National Cemetery's legacy as a national shrine that honors all who 
have served and died for their country.
    Thank you.
                                 <F-dash>
     Prepared Statement of Vivianne Cisneros Wersel, Au.D., Chair,
    Government Relations Committee, Gold Star Wives of America, Inc.
          ``With malice toward none; with charity for all; with 
        firmness in the right, as God gives us to see right, let us 
        strive to finish the work we are in; to bind up the Nation's 
        wounds, to care for him who has borne the battle, his widow and 
        his orphan.''

         . . . President Abraham Lincoln, Second Inaugural Address, 
        March 4, 1865

    Mr. Chairman and Members of the Subcommittee on Disability 
Assistance and Memorial Affairs, I am pleased to provide testimony on 
behalf of the Gold Star Wives of America, Inc. (GSW) on issues at 
Arlington National Cemetery (ANC) that are important to our Nation's 
military widows and widowers. Our intent is to inform this Committee of 
the experiences of our members and to help improve the ceremony for 
others. My name is Dr. Vivianne Wersel, and I am the Chair of the Gold 
Star Wives' Government Relations Committee. I am the widow of 
Lieutenant Colonel Richard Wersel, Jr., USMC, who died suddenly on 
February 4, 2005, 1 week after returning from his second tour of duty 
in Iraq. My husband was interred in ANC on February 23, 2005.
    GSW is an all-volunteer Veterans Service Organization founded in 
1945 and Congressionally Chartered in 1980. It is an organization of 
surviving spouses of military servicemembers who died while on active 
duty or as the result of a service-connected cause. Our current members 
are surviving spouses of military servicemembers who served during 
World War II, the Korean War, the Vietnam War, the Gulf War, the 
conflicts in both Iraq and Afghanistan, and every period in between.
    Our primary mission is to support GSW members after the death of 
their spouse and provide a place to connect with other military 
surviving spouses. We also provide information about military and 
veterans' benefits and assist surviving spouses who are experiencing 
difficulties accessing those benefits. We strive to raise the awareness 
of Congress, the public, and the military community to the many 
inequities existing in survivor programs and benefits.
    The deceased spouses of many of GSW members are interred in ANC. 
Many of our members relocated to the Arlington area just to be near 
where their loved one is buried. It is important for some of us to 
visit our loved ones and bond with other families in similar 
circumstances.
    Prior to the recent change in administration, some of our members 
endured unfortunate experiences with the interment process such as the 
waiting time for interment, paperwork for the headstone, a lack of 
information about the protocol of the ceremony. Many of these 
experiences occurred when they were wading through their grief and 
unfortunately, disrupted the integrity of the ceremony. In preparation 
for this testimony, information was gathered from interments that 
occurred between 2005 and the present.
    We consistently hear from our members that the wait for burial can 
be a most difficult period while in their fog of grief. GSW seeks to 
raise awareness to the Committee as well as ANC in the hopes the 
situation can be improved with the wait time and issues with storage. 
One GSW member, Nikole, lost her husband on February 24, 2011. He was 
an active duty JAG officer in the U.S. Army. His civilian funeral was 
the week following his death; however, he could not be buried at ANC 
before June due to the ``wait'' time. He is being buried this very day 
as we sit in this hearing, one day shy of 4 full months from his death. 
In addition to the wait, the widow has been asked for a $125 per week 
fee for storage of her husband's body. The Army will pay for the 
service; however, not until the body has been buried. Therefore, in the 
meantime, the funeral home is requesting payment from the widow. This 
widow was also put in the untenable position of sorting through a 
disagreement between the Ft. Belvoir Casualty Affairs Office and the 
funeral home about who was responsible to supply the casket, each 
pointing to the other. She ended up running short on time and getting a 
casket that was basically a ``scratch and dent'' discontinued model 
from the warehouse. She could have buried him sooner and avoided the 
storage fees if she had him buried without honors, but he served his 
country well and deserves the honors. Waiting for the burial of a loved 
one is very emotional as interment is the final goodbye. There are 
three key players/organizations involved in a burial at Arlington: ANC 
itself, the Casualty/Mortuary Affairs Offices for each of the services 
and the funeral home. It is logical for Arlington to take the lead and 
provide the appropriate information to everyone involved, including the 
surviving family.
    Typically, for active duty deaths, burial is within a reasonable 
amount of time; however, some families of servicemembers who are 
eligible for burial at ANC sometimes have to wait for months for their 
interment. This is emotionally draining as well as a time of financial 
burden.
    In the U S Army Inspector General Report completed in February 2010 
and amended in November 2010, the average wait time for interring/
inurning of servicemembers killed in action was 10-14 days; the average 
wait for veterans was 4-6 weeks. GSW is concerned that the wait time 
for veterans, even those who die on active duty, is now 4 months or 
more.
    The majority of GSW issues pertained to the paperwork for the 
headstone that is presented to the family at the time of the interment. 
As you can imagine, that is a particularly difficult time for families 
to be asked to complete the paperwork. Most are merely questioned if 
the information presented is accurate and are not informed of options 
for additional information that can be inscribed such as ``Loving 
Husband and Father.'' The information provided is not always consistent 
and in some cases is non-existent. GSW seeks improvement of this 
process.
    Lisa, another GSW, stated that when she arrived at the 
Administration Center prior to her husband's service, she was escorted 
to the desk where she was asked to select a design for her husband's 
headstone. The Arlington representative escorting her told her she had 
to hurry because she did not have much time. She needed to correct the 
date of death on the paperwork and then as she was trying to select 
from the hundreds of spiritual symbols, the representative sternly 
reminded her to hurry or they would miss the scheduled flyover. If time 
was so critical, perhaps they should have waited to complete the 
paperwork until the service was finished. Information must be provided 
to the families at the right time so decisions can be made outside of 
the emotion of the day of interment.
    After the ceremony, some families felt they were not given enough 
time at the graveside. Some were not allowed to stay through the 
lowering of the casket into the grave. There were some concerns about 
why non-Iraq/Afghanistan servicemembers (or spouses) were placed in 
Section 60 and some Iraq/Afghanistan servicemembers were not given the 
option of being buried in Section 60 and were placed in other sections.
    In October 2010, Ms. Kathryn Condon, the new Executive Director of 
the Army National Cemeteries Program, held a town hall meeting to 
listen to survivor issues and concerns. Taking the time to meet with 
individuals and listening to their concerns was an important first step 
in communication with Gold Star Families. Ms. Condon was truly involved 
in the discussions and did her best to answer questions. With the 
exception of the ``wait'' time for the interment, Ms. Condon addressed 
the issues brought before her. Ms. Condon also presented a brochure 
that was being prepared for the families to help alleviate the problems 
with communication. It was in the final stages waiting for policy 
approval. Ms. Condon's brochure addressing pertinent information 
regarding a burial at Arlington is vital in this communications 
process.
    There has been confusion with misplaced deceased servicemembers, a 
lack of communication when policy changes, problems with lithochrome 
headstones and headstone scripture, etc. Ms. Condon did her best to 
address all of these concerns. This was very cathartic for all who 
attended.
Recommendations:
    GSW seeks a status update from the ANC town hall meeting 
recommendations to ANC:

    <bullet>  Approval of ANC brochure, to include protocol and policy
    <bullet>  Establish e-mail list to notify survivors of events and 
changes to protocol, rules and policy
    <bullet>  Implement working group of stakeholders to identify 
issues be established to address the concerns of family members
    <bullet>  Host town hall meetings periodically so that stakeholders 
may raise their concerns in an open forum

    GSW seeks decreasing the wait time for interment. The waiting time 
for interment and the costs involved in storing the body for long 
periods also need to be addressed.
    We are pleased to have Ms. Condon and the Army as the gatekeepers 
to our loved ones garden as well as our future resting place. GSW 
recommendations are suggested to help improve the quality of the 
service of the interment at ANC, to inspire trust and exceed the 
stakeholders' expectations and to increase the understanding of the 
stakeholders' needs.
    Thank you for the opportunity to present testimony. I am available 
for any questions you may have.

                                 <F-dash>
  Statement of Ian de Planque, Deputy Director, National Legislative 
                    Commission, The American Legion

    Mr. Chairman and Members of the Committee:
    Without question, the failures of past leadership at Arlington 
National Cemetery are inexcusable. The hallowed ground, a little over 
600 acres of northern Virginia hillside, has stood since this Nation's 
Civil War as the crown jewel of reverence for the fallen warriors, the 
men and women who have served this Nation in peacetime and war in the 
air, on land and at sea. Arlington National Cemetery is the epicenter 
of a country's reverence for these servicemembers. This is the sacred 
ground of the Tomb of the Unknown Soldiers, and John F. Kennedy's 
Eternal Flame. Yet past management of these grounds led to a state of 
disorder, disrepair and disrespect that was clearly disgraceful. There 
is very little to be served by reciting a litany of the past failures. 
Rather it is far more important to acknowledge the intervening 
successes and recognize the remaining challenges.
    Last summer, in June of 2010, the transition of management began. 
Kathryn Condon took up the post of Executive Director of the Army 
National Cemeteries Program, and other changes would follow. Director 
Condon and her team have been tireless and honest, sometimes brutally 
so, in the pursuit of righting this sinking ship. The American Legion 
applauds Director Condon for her forthright efforts to correct these 
errors.
    In Washington, it is not unheard of to sweep unpleasant truths out 
of the public eye. Facts which reflect poorly upon an organization or 
program are recast with new spin. It's almost unheard of to admit to 
shortcomings and failings. Given the preoccupation with self-
preservation, the candor from the new management team over the past 
year has been refreshing. This administration has not shied from hard 
truths; they have instead met them head on.
    The news coming from the cemetery was seldom good, and often 
horrifying, but it was also honest. America learned of mislabeled 
remains, and bodies buried in the wrong locations. This was not some 
trivial matter thought to have occurred once or twice, but perhaps in 
6,000 locations or more. Cemetery staff, when questioned by incoming 
management regarding standard procedure manuals for burials and plot 
alignment, admitted no such written records existed, and work had been 
handed down by word of mouth. Electronic records did not exist, 
information was stored on index cards as if the Nation's most prominent 
military cemetery was a 1950's muffler shop. Perhaps the only thing 
more eye-opening than the litany of prior failings at the cemetery was 
the willingness of new management to dig deep enough to find all of the 
errors and begin plans to set them aright.
    A year later, Arlington Cemetery is far from fixed, but it is on 
the road to recovery. The American Legion recognizes the hard work and 
dedication of the management and staff to make things right. While it 
cannot be definitively said no more scandals are left to surface, there 
is at least a newfound sense of confidence management will not flinch 
from addressing these scandals head on and will at least work to make 
things right.
    Yet even so, this cannot be the long term solution.
    Now that the Department of Defense (DoD) has had time to regain its 
footing and begin to remove the stain of the failures at Arlington from 
its image, The American Legion urges Congress to place the ultimate 
ongoing responsibility of managing, operating, and maintaining 
Arlington National Cemetery and the U.S. Soldiers' and Airmen's Home 
National Cemetery in Washington, DC directly with the Department of 
Veterans Affairs through the National Cemetery Administration (NCA). In 
the entire government, no other agency can match the track record of 
success and satisfaction NCA has worked hard to achieve. NCA is well 
known for their attention to detail, and their ability to perform the 
task of ensuring the dignity of or fallen servicemembers like no other.
    Arlington Cemetery may struggle with electronic tracking of 
gravesites, but NCA has a system already in operation. A downloadable 
``app'' for smart phones is available to utilize this electronic 
gravesite tracker on the go. Why look outside for technology already 
existing and run by individuals with the expertise already in hand? Why 
reinvent the wheel?
    The DoD has one critical mission, to prepare for and execute the 
war fighting necessary for this Nation's defense. Sidelining resources 
of money and staff to non-war fighting tasks degrades efficiency within 
DoD. NCA is already managing 131 cemeteries and doing it well. As any 
business would point out, management costs can be better amortized when 
spread over a large operation in this nature, and the costs to absorb 
Arlington and the U.S. Soldier's and Airmen's Home National Cemeteries 
would result in net cost saving for the government as a whole.
    The American Legion is mindful of the proud tradition of the Army 
in maintaining this facility and recognizes the importance to the Army, 
those presently serving and veterans, of restoring honor to the 
facility. Nobody questions the performance of the Army in the 
ceremonial tasks and duties they have always performed, and performed 
with distinction. The American Legion believes the responsibilities of 
the 3rd U.S. Infantry Regiment, traditionally known as ``The Old 
Guard,'' which include conducting military ceremonies at Arlington 
National Cemetery, manning the 24-hour vigil at the Tomb of the 
Unknowns, and being the provider of military funeral escorts at 
Arlington, should never change, as a result of any reorganization 
associated with Arlington National Cemetery.
    What transpired at Arlington National Cemetery was unconscionable. 
The past is immutable and cannot be changed. All that may change is how 
we face the future. To this end, as we begin to move past the immediacy 
of crisis and into long range planning, The American Legion again 
stresses the importance of ensuring future operations are smooth, 
professional and worthy of the gravity afforded to the task of granting 
our servicemembers rest with reverence and dignity. While the efforts 
of Director Condon and Superintendant Hallinan are laudable, they do 
not represent a long term solution, nor should that be asked of them. 
The American Legion asks Congress to begin the transitional process of 
transferring management authority for Arlington National Cemetery and 
the U.S. Soldier's and Airmen's Home National Cemetery to the National 
Cemetery Administration of the Department of Veterans Affairs.
    The U.S. Government has, in NCA, an outstanding body dedicated to 
providing for the reverential treatment of the eternal remains of our 
fallen, and it is time we handed the future of Arlington to them. Then, 
and only then, can we begin to move forward with confidence these 
shameful events will never be repeated.

                                 <F-dash>
 Statement of Hon. John Barrow, a Representative in Congress from the 
                            State of Georgia

    The many brave men and women buried at Arlington National Cemetery 
dedicated their lives to serving our country. They've earned our 
undying gratitude and respect, and it's our responsibility to ensure 
that they continue to receive that respect after they have passed on.
    I had the honor of recently visiting Arlington National Cemetery, 
where Ms. Condon and Mr. Hallinan showed me firsthand the improvements 
they have made in maintaining and operating the final resting place for 
our veterans and their families.
    Two things are certain: the problems at Arlington didn't develop 
overnight, and the problems won't be fixed overnight. The problems 
resulted from years of poor management and a lack of Congressional 
oversight. We have a responsibility to fix those mistakes and ensure 
they never happen again.
    I look forward to learning more about how the operations at 
Arlington have been improved, but I am more interested in ensuring that 
these mistakes are never repeated.
    Our deceased servicemembers and their families deserve the respect 
of a well operated and well maintained final resting place.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
